                       U.S. Department of Agriculture
                          Office of Inspector General




Animal and Plant Health Inspection Service
  Administration of the Horse Protection
    Program and the Slaughter Horse
           Transport Program




                                Audit Report 33601-2-KC
                                        September 2010
                              U.S. Department of Agriculture
                               Office of Inspector General
                                 Washington, D.C. 20250

DATE:          September 30, 2010


REPLY TO
ATTN OF:       33601-2-KC

TO:            Cindy J. Smith
               Administrator
               Animal and Plant Health Inspection Service

ATTN:          Joanne L. Munno
               Deputy Administrator
               Marketing and Regulatory Programs Business Services

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Animal and Plant Health Inspection Service Administration of the Horse
               Protection Program and the Slaughter Horse Transport Program


This report presents the results of our audit of the Animal and Plant Health Inspection
Service Administration of the Horse Protection Program and the Slaughter Horse Transport
Program. The September 20, 2010, written response to the official draft report is included
with excerpts and the Office of Inspector General’s position incorporated into the relevant
sections of the report.

In its written response to the official draft report, the agency concurred with the findings and
recommendations in the report. Based on your response, we have accepted management
decision for all recommendations in the report. Please follow your internal agency
procedures in forwarding final action correspondence to the Office of the Chief Financial
Officer. Also, please note that Departmental Regulation 1720-1 requires final action to be
completed within 1 year of the date of management decision to preclude being listed in the
Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during
the review.
Table of Contents

Executive Summary...................................................................................... 1
Background & Objectives............................................................................ 6
  Background ................................................................................................ 6
  Objectives ................................................................................................... 9
Section 1: Preventing the Soring of Show Horses ............................... 10
  Finding 1: APHIS Needs to Improve its Program for Inspecting
  Show Horses for Abuse and Penalizing Violators.............................. 10
        Recommendation 1 ........................................................................... 17
        Recommendation 2 ........................................................................... 18
        Recommendation 3 ........................................................................... 19
        Recommendation 4 ........................................................................... 19
        Recommendation 5 ........................................................................... 20
  Finding 2: APHIS Needs to Improve its Controls for Ensuring that
  Horse Protection Act Violators Do Not Participate in Shows While
  Suspended ................................................................................................ 21
        Recommendation 6 ........................................................................... 23
        Recommendation 7 ........................................................................... 23
        Recommendation 8 ........................................................................... 24
Section 2: Ensuring the Humane Transport of Horses to Foreign
Slaughter Facilities ..................................................................................... 26
  Finding 3: APHIS Needs Stronger Penalties to Prevent Individuals
  with Humane Handling Violations from Transporting Slaughter
  Horses........................................................................................................ 26
        Recommendation 9 ........................................................................... 27
        Recommendation 10 ......................................................................... 28
  Finding 4: APHIS Needs to Strengthen its Controls over Backtags
  for the Transport of Horses to Slaughter ............................................. 28
        Recommendation 11 ......................................................................... 32
        Recommendation 12 ......................................................................... 33
        Recommendation 13 ......................................................................... 34
Scope and Methodology ............................................................................ 35
Abbreviations .............................................................................................. 37
Exhibit A: Diagram of a Horse’s Lower Leg and Hoof........................... 38
Exhibit B: Penalties for Horse Protection Act (HPA) Soring Violations
....................................................................................................................... 39
Agency’s Response .................................................................................... 41
APHIS Administration of the Horse Protection Program and the
Slaughter Horse Transport Program

Executive Summary
Federal law and regulations require that horses be treated humanely, whether they are horses
exhibited at shows or horses being transported to slaughterhouses. 1 As the agency of the U.S.
Department of Agriculture (USDA) tasked with enforcing the humane treatment of these
animals, the Animal and Plant Health Inspection Service (APHIS) operates two programs. The
Horse Protection Program ensures that show horses are not subjected to the abusive practice of
“soring,” i.e., physically mistreating a horse to cultivate a certain gait in the show ring. The
Slaughter Horse Transport Program ensures that horses being shipped for slaughter to foreign
processing plants are transported humanely. 2 The Office of Inspector General (OIG) initiated
this audit to evaluate APHIS’ oversight of the humane treatment of horses, both those being
shown and those being shipped to slaughter.

Horse Protection Program

Concerning the treatment of show horses, we found that APHIS’ program for inspecting horses
for soring is not adequate to ensure that these animals are not being abused. At present, horse
industry organizations hire their own inspectors (known as designated qualified persons (DQP))
to inspect horses at the shows they sponsor. However, we found that DQPs do not always inspect
horses to effectively enforce the law and regulations, and in some cases where they do find
violations, they deliberately issue tickets to friends or family members of responsible individuals
so that the responsible person could avoid receiving a penalty for violating the Horse Protection
Act.

After Congress passed the Horse Protection Act, USDA through APHIS, developed the DQP
system as a way of meeting its responsibilities to establish a program for the appointment of
inspectors and the manner of inspections, given the agency’s very limited resources. Since
passage of the Horse Protection Act in 1970, APHIS’ budget for the Horse Protection Program
was set at no more than $500,000 yearly, and the program’s funding limitation has remained
unchanged for almost four decades. These funds are used to cover travel, salaries, and other
expenditures for APHIS employees involved in the Horse Protection Program.

Given its limited resources—which APHIS regards as inadequate to send its own veterinarians to
the approximately 500 horse shows that are held each year—the agency implemented the
program by collaborating with the horse industry organizations sponsoring the shows. Horse
industry organizations are responsible for hiring, training, and licensing all DQPs that inspect
horses to enforce the Horse Protection Act. These organizations are required to hire enough
DQPs to examine every horse that is shown for signs of soring and issue violations to exhibitors



1
  T he Horse Protection Act, 15 U.S. Code (U.S.C.) §1821-§1831, and regulations found in the Code of Federal Regulations (CFR), 9 CFR
Part 11, relate to protecting horses from soring. Regulations found in 9 CFR Part 88 relate to protecting horses being transported to immediate
slaughter.
2
  Since 2007, State laws have prevented the slaughter of horses for human consumption in the United States.


    Audit Report 33601-2-KC                                                                                                                       1
who abuse their horses. 3 Having DQPs present to inspect the horses at each show relieves show
managers of their liability to ensure that no horses that are found in violation of the Horse
Protection Act participate in any show, sale, or other event. APHIS also sends its own teams of
veterinarians to some of these horse shows, where they make unannounced visits and evaluate
the DQPs’ performance. In fiscal year 2007, the Horse Protection Program’s budget of $497,000
was only sufficient to send APHIS veterinarians to approximately 30 of the 463 sanctioned
shows, or 6 percent.

Although the DQP system was intended to establish a way for inspections to occur even when
APHIS employees could not be present, we found that it was not functioning as intended. DQPs
realize that by ticketing horse exhibitors, or by excluding horses from a show, they are not likely
to please their employers—who are interested in putting on a profitable show. DQPs are also
likely to be exhibitors themselves, and so while they may be inspecting horses at one show, they
could be exhibiting horses at another. If they inspected other exhibitors’ horses rigorously, they
might find their own horses subjected to much more strenuous inspections at other shows.

Given the DQPs’ clear conflict of interest, we found that they did not always inspect horses
according to the requirements of the Horse Protection Act. One DQP we spoke to was in the
habit of giving exhibitors “freebies,” or warnings, instead of issuing tickets for violations. Some
DQPs—when they did issue a ticket—would issue it, not to the exhibitor responsible for abusing
the horse, but to almost anyone else, including stable hands working for the exhibitor. Overall,
we found that DQPs working independently issued few tickets; they were much more likely to
issue violations when they were being observed by an APHIS employee. From 2005 to 2008,
APHIS veterinarians were present at only 6 percent of all shows, yet DQPs issued 49 percent of
all violations at these shows. 4 In other words, DQPs noticed about half of the violations they
found at the small number of shows where they were being observed by an APHIS employee.

Additionally, the environment for enforcing the Horse Protection Act is hostile. Many in the
horse show industry do not regard the abuse of horses as a serious problem, and resent USDA
performing inspections. The practice of soring has been ingrained as an acceptable practice in
the industry for decades. APHIS records showed that there was an environment at horse shows,
sales, and other horse-related events in which APHIS employees were subjected to intimidation
and attempts to prevent them from inspecting horses. Show organizers, exhibitors, and
spectators denied the inspectors the physical environment they needed to inspect horses, verbally
abused them, and even made anti-USDA comments over the public address system. APHIS
reports describe one incident where a representative of show management made a speech during
a horse show discussing how the government bullied the walking horse industry and urged
people to stand up to this unjust treatment. The crowd cheered these sentiments. Due to this

3
  We use the term “exhibitor” in the report to refer to a show horse’s owner, trainer, or other handler. Horse Protection Act regulations state that
the term “exhibitor” refers to “(1) any person who enters any horse, any person who allows his horse to be entered, or any person who directs or
allows any horse in his custody or under his direction, control or supervision to be entered in any horse show or horse exhibition; (2) any person
who shows or exhibits any horse, any person who allows his horse to be shown or exhibited, or any person who directs or allows any horse in his
custody or under his direction, control, or supervision to be shown or exhibited in any horse show or horse exhibition; (3) any person who enters
or presents any horse for sale or auction, or any person who allows any horse in his custody or under his direction, control, or supervision to be
entered or presented for sale or auction in any horse sale or horse auction; or (4) any person who sells or auctions any horse, any person who
allows his horse to be sold or auctioned, or any person who directs or allows any horse in his custody or under his direction, control, or
supervision to be sold or auctioned.”
4
  We requested that APHIS obtain data from the 14 horse industry organizations approved by APHIS in 2008; only 6 horse industry organizations
provided this data to APHIS.


    Audit Report 33601-2-KC                                                                                                                       2
hostile environment, APHIS employees routinely bring armed security or the police with them
when they visit shows.

Such an environment creates clear challenges for enforcing the Horse Protection Act. At present,
horse industry organizations and show managers are paying substantial sums to regulate their
industry by training and hiring DQPs, but at present, the DQP-inspection process is not serving
APHIS’ intended purpose. Given the problems we observed with DQPs and the conflicts of
interest, we are recommending that APHIS abolish the DQP program, and instead provide
independent, accredited veterinarians to perform inspections at sanctioned shows. APHIS should
hire and train these inspectors, but the agency should pass the costs for their inspections along to
the show managers responsible for the show. While it is true that an inspection system relying
on veterinarians will be more expensive than a system based on DQPs, our estimate of the costs
involved indicates that the additional costs would be minimal, amounting to only a few dollars
for each horse entered into the shows. 5 The APHIS officials we spoke with stated that a
veterinarian-based system would provide the horse industry and the Federal Government with a
much higher quality inspection process, and would generally improve APHIS’ ability to enforce
the Horse Protection Act.

We also noted that APHIS inspection teams at horse-related events cannot ensure that
individuals suspended from participating in horse shows due to violations are not participating.
APHIS personnel visiting a show do not check the USDA suspension list, unless they recognize
a suspended person at the show, and show managers also do not provide APHIS personnel with a
complete list of all the individuals planning to exhibit horses during a given show, sale, or event.
Unless there is a control in place to check this information, suspended exhibitors may continue
participating in shows.

Overall, OIG is also recommending that APHIS seek the necessary funding from Congress for
the Horse Protection Program, as the current level of funding does not enable the agency to
oversee it adequately. Given the weaknesses in the inspection process, APHIS employees need
to attend more shows to ensure that horses are inspected adequately.

Slaughter Horse Transport Program

Our review of the slaughter horse transport program found that APHIS needs to improve its
controls for ensuring that horses being shipped to foreign plants for slaughter are treated
humanely. At present, APHIS does not deny authorization to individuals with a record of
inhumanely transporting slaughter horses to ship other loads of horses, even if unpaid fines are
pending for previous violations. Regulations simply do not address denying this authority, and
so APHIS provides the authorization, regardless of the owner’s history. Without regulations or
legislation to establish more meaningful penalties, owners have little incentive to comply with
regulations, pay their penalties, and cease inhumanely handling horses bound for slaughter.

Finally, we found that there were control deficiencies in how APHIS tags horses that have been
inspected and approved for shipment to foreign slaughterhouses. The agency requires shippers
to mark such horses with backtags, which are intended to allow APHIS employees to trace

5
    We compared the costs of using veterinarians and DQPs for inspections. The details of this analysis are found on page 1 7.


    Audit Report 33601-2-KC                                                                                                      3
horses back to their owner and also to verify that the horses have passed inspection by an
accredited veterinarian. We found, however, that the agency’s controls over these tags were
weak, and that owners could easily obtain them and apply the tags to horses without APHIS’
knowledge. In addition, APHIS does not currently have an effective control or tracking system
to trace all backtags used to transport horses to slaughter. Without regulations controlling the
distribution, use, and tracking of these tags, owners can transport horses that do not meet the
requirements for shipment. APHIS needs to seek the appropriate legislative and regulatory
changes to ensure that only qualified individuals (such as APHIS personnel or USDA-accredited
veterinarians) apply backtags to horses being shipped to slaughter. It also needs to obtain the
resources necessary to adequately oversee the Slaughter Horse Transport Program.

We concluded that APHIS needs to take the following steps to strengthen controls over the
Horse Protection Program and the Slaughter Horse Transport Program.

   Recommendation Summary
   Abolish the current DQP system and establish by regulation an inspection process based on
   independent accredited veterinarians, and obtain the authority, if needed, to charge show
   managers the cost of providing independent, accredited veterinarians to perform inspections
   at sanctioned horse shows, sales, and other horse-related events.

   Implement a control to ensure that individuals suspended from horse shows, sales, or
   exhibitions due to Horse Protection Act violations do not participate in subsequent events.

   Seek the necessary funding from Congress to adequately oversee the Horse Protection
   Program.

   Revise and enforce regulations to prohibit horses disqualified as sore from competing in all
   classes at a horse show, exhibition, or other horse-related event.

   Revise Slaughter Horse Transport Program regulations to allow APHIS to deny shipping
   documents to individuals who repeatedly violate humane handling regulations and who have
   fines outstanding.

   Develop and maintain a control (database or list) of all individuals who have violated the
   regulations of the Slaughter Horse Transport Program and have not paid the associated fines.

   Revise regulations or implement adequate controls to ensure that APHIS provides backtags
   to qualified personnel who can inspect horses bound for slaughter and apply, or oversee the
   application of, backtags when approving transport documentation.

   Develop and implement an appropriate control to track individual horses by backtag number
   on all shipping documents approved so that reconciliation can be performed, violations can
   be investigated, and enforcement action can be initiated against the horse’s owner and
   shipper.




Audit Report 33601-2-KC                                                                           4
  Agency Response

  In its September 20, 2010, response to the official draft report, APHIS agreed with each of
  the findings and recommendations and provided information on corrective actions planned
  and underway. The APHIS written response to the official draft report is included at the end
  of this report with excerpts and the Office of Inspector General’s (OIG) position incorporated
  into the relevant sections of the report.

  OIG Position
  Based on APHIS’ response, we accept management decision on all of the report’s 13
  recommendations.




Audit Report 33601-2-KC                                                                        5
Background & Objectives

Background
APHIS ensures the humane treatment of show horses and slaughter horses through two
programs—the Horse Protection Program and the Slaughter Horse Transport Program. APHIS is
divided into several smaller divisions that focus on different aspects of animal and plant health
initiatives. The Animal Care Division administers the Horse Protection Program, and at the time
of the audit, the Veterinary Services (VS) Division6 administered the Slaughter Horse Transport
Program.

Horse Protection Program

The Horse Protection Program, administered by APHIS’ Animal Care Division, protects horses
participating in shows, sales, exhibitions, or auctions from being abused, especially through the
process known as “soring.” Used to accentuate a horse’s gait, “soring” involves applying an
irritating or blistering agent to any limb of a horse; cutting, burning, or lacerating any limb of a
horse; or applying a tack, nail, screw, or chemical agent to any limb of a horse so that the horse
suffers, or is expected to suffer, pain, inflammation, or lameness when walking, trotting, or
otherwise moving. 7 Horse Protection Act violations can also include pressure shoeing and scar
rule violations, as scarring is often evidence of past abuse.

Exhibitors began using soring in the United States in the 1950s as a way to improve a horse’s
chances of winning at shows without following conventional training methods. 8 Sore horses
gained a competitive edge, and the practice became widespread in the 1960s. Soring raises the
prestige, value, and breeding prospects of horses that are often not the best examples of their
respective breed. While any breed of horse can be sored, the practice is most frequently used on
high-stepping breeds such as Tennessee walking horses. 9

The Horse Protection Act was passed in 1970, and amended in 1976, to ensure that show horses
were not subjected to the practice of soring to gain a competitive edge over horses that were not
abused. The Act established that soring at horse shows, horse sales, and other horse exhibitions
is prohibited and outlines penalties if inspectors find a horse to be sore. This Act states,

       “the Congress finds and declares that (1) the soring of horses is cruel and inhumane; (2)
      horses shown or exhibited which are sore, where such soreness improves the performance of
      such horse, compete unfairly with horses which are not sore;… (5) regulation under this
      chapter by the Secretary is appropriate to prevent and eliminate burdens upon commerce and
      to effectively regulate commerce.”




6
  In January 2010, the administration of the Slaughter Horse Transport Program was transferred from VS to the APHIS National Center for
Import and Export.
7
  Horse Protection Act, as amended, 15 U.S.C. §1821.
8
  More conventional training methods include conditioning and regular riding to develop the horse’s natural gaits.
9
  T he Tennessee walking horse is a gentle and comfortable riding horse. The breed was originally bred in the Southern United States to carry the
owners of plantations around their lands. Their unique four-beat “running walk” is especially comfortable to ride. It is a calm, easygoing breed
that is typically easy to train. In the show arena, walking horses are known for their gliding running walk.


    Audit Report 33601-2-KC                                                                                                                    6
The Act also states that,

     “The Secretary shall prescribe by regulation requirements for the appointment by the
     management of any horse show, horse exhibition, or horse sale or auction of persons
     qualified to detect and diagnose a horse which is sore or to otherwise inspect horses for the
     purposes of enforcing this chapter…”

In order to enforce the Horse Protection Act, APHIS partnered with horse industry organizations,
which sponsor and sanction shows, sales, and other events. The horse industry organizations
hire inspectors, known as designated qualified persons (DQP), who inspect every horse before it
is shown, exhibited, or sold at an event. 10 DQPs are not APHIS employees, but are farriers, horse
trainers, or other knowledgeable horsemen. Each individual must receive proper training on the
detection or diagnosis of horses that are sore before being licensed as a DQP. During training
sessions, DQPs and APHIS veterinarians work together to identify sore horses, discuss
inspection techniques, etc. 11

When DQPs inspect a horse for soring, they physically examine the pastern and fetlock area of
the horse’s front legs, and the horse’s front hooves—this physical examination is referred to as
“palpating” the horse. (See Exhibit A for a diagram of a horse’s leg and hoof.) DQPs write
tickets for Horse Protection Act violations, and the horse industry organization and APHIS
ensure that the violator serves an appropriate penalty. 12 Horse Protection Act violations may
ultimately lead to an investigation by APHIS’ Investigative and Enforcement Services and
Federal enforcement by the Office of the General Counsel (OGC).

APHIS inspection teams—including professional equine veterinarians working directly for the
agency—conduct unannounced inspections at selected horse events to evaluate DQPs and
examine any horse for signs of soring or other violations of Federal regulations. If a DQP’s
inspection procedure does not meet Horse Protection Act standards, APHIS may recommend the
horse industry organization issue a letter of warning. Regulations state that a DQP will
permanently lose his or her license after receiving two warnings. A DQP can appeal for
reinstatement to the Deputy Administrator of APHIS after losing his or her license.

Because inspections are performed by hand, their quality and results can vary greatly. To
improve their accuracy, APHIS has recently made gas chromatography/mass spectrometry
technology available to its veterinarians. This technology analyzes a sample obtained by
swabbing a horse’s pastern in order to identify otherwise undetectable chemical substances such
as mustard oil, diesel fuel, kerosene, any other irritating agent used to accentuate a horse’s gait,
or any numbing or masking agents used to hide the effects of soring. In addition, APHIS
veterinarians have begun using thermography cameras to detect signs of inflammation on the
pasterns of horses presented for inspection. Thermography cameras detect the radiant heat of an
object, and can offer inspectors clues that a horse has been subjected to soring. Thermography

10
   9 CFR Part 11.21 lists the inspection procedures that all DQPs must follow.
11
   Our review of the training program provided to DQPs indicated that it was adequate, and that lack of training was not a cause of DQPs’ failure
to properly inspect horses.
12
   Individuals may serve a suspension for violating the Horse Protection Act; the length of suspension depends on the nature of the violation. See
Exhibit B for a description of suspensions for Horse Protection Act violations. Individuals may also be required to pay monetary penalties if
found guilty of violating the Horse Protection Act during Federal prosecution. Individuals may pay penalties of up to $3,000 for violating the
Horse Protection Act.


 Audit Report 33601-2-KC                                                                                                                        7
became an available screening tool for the 2009 show season that APHIS veterinarians can use if
environmental conditions at the show are favorable for its use. 13 Thermography cameras are not
effective for use in all areas, such as open areas with direct sunlight or areas with dust in the air.

Because many in the horse industry do not agree that the “soring” of horses is a problem, APHIS
employees are often subjected to hostile treatment when they attend shows. At the 2006
Tennessee Walking Horse National Celebration—the premier event for the industry—APHIS
disqualified all but three horses in the show’s World Grand Championship class due to Horse
Protection Act violations. Show management cancelled the final class, failing to name a World
Grand Champion for the first time in 68 years. Spectators demanded that the horses be allowed
to show. Police and other security were needed to control the crowd and protect APHIS’
personnel. These sorts of disagreements, as well as the anti-Government sentiments expressed at
these shows when APHIS employees are present, make the agency’s efforts to introduce
effective and objective enforcement procedures difficult.

Slaughter Horse Transport Program

APHIS also monitors the transport and treatment of horses bound for slaughter. Prior to 2007,
the majority of U.S. horses bound for slaughter were sent to three American facilities, where they
were slaughtered in accordance with U.S. humane handling regulations. When those
slaughterhouses were shut down by State laws banning horse slaughter for human consumption
in those two States, horse dealers began shipping all slaughter horses to Canadian and Mexican
facilities, which are not subject to the U.S. Humane Slaughter Act. 14 Owners and shippers in the
United States sent almost 107,000 horses to slaughter in foreign plants during 2008—50,000
horses to Canadian slaughter facilities and 57,000 horses to Mexican slaughter facilities.

In order to reach these foreign slaughterhouses, horses must be shipped much greater distances,
which increases the risk for accidents and inhumane treatment during transport. Regulations
require owners and shippers to provide the animals adequate food, water, and rest before and
during the transport process, as well as provide adequate safety measures to ensure that the
animals are not injured or suffer unduly while in transit. 15 APHIS’ VS Division monitors
shipments of horses transported for slaughter to ensure that owners and shippers meet established
regulations. APHIS VS’ identified program goal is that “if a horse must be transported
commercially to slaughter, then it will travel in a safe and humane fashion.”

A USDA representative may examine horses, the conveyance, and the “Owner/Shipper
Certificate” at any point during the transport of horses to slaughter, including at the border, to
ensure the animals are treated humanely. 16 Persons found to be violating humane transport
regulations for horses bound to slaughter plants face penalties up to $5,000 per horse, per
violation.


13
   A horse show season generally lasts from March through October of each year, although some horse shows, sales, or events are held before or
after these dates.
14
   7 U.S.C. §1901-1907.
15
   Regulations in 9 CFR Part 88 define an owner/shipper as, “ Any individual, partnership, corporation, or cooperative association that engages in
the commercial transportation of more than 20 equines per year to slaughtering facilities, except any individual or other entity who transports
equines to slaughtering facilities incidental to his or her principal activity of production agriculture (production of food or fiber).”
16
   VS Form 10-13, Owner/Shipper Certificate.


 Audit Report 33601-2-KC                                                                                                                        8
Awareness of the shipment of U.S. horses to these facilities and their treatment has recently
increased. Legislation has been introduced in Congress that would amend the criminal code
(18 U.S.C. Chapter 3, §50) to prohibit the possession, shipment, transport, purchase, selling,
delivering, or receiving of horses to be slaughtered for human consumption. This offense would
be punishable by fine or imprisonment of up to three years. 17

Objectives
The overall objective of our review was to evaluate the effectiveness of APHIS’ oversight of the
humane treatment of horses. In relation to the Horse Protection Act, we determined whether
DQP inspections were adequate at sales and shows, and determined whether unannounced
inspections by APHIS officials provide adequate oversight of DQPs in the field. We also
identified and assessed APHIS’ policies regarding the humane treatment of horses in transport to
slaughter facilities.




17
  Senate 727 and House of Representatives 503—To amend Title 18, U.S.C., to prohibit certain conduct relating to the use of horses for human
consumption, also known as the “Prevention of Equine Cruelty Act of 2009,” 111 th Congress.


 Audit Report 33601-2-KC                                                                                                                   9
Section 1: Preventing the Soring of Show Horses

Finding 1: APHIS Needs to Improve its Program for Inspecting Show Horses for
Abuse and Penalizing Violators
APHIS’ current program for inspecting show horses for abuse is not adequate to ensure that
these animals are not being sored so that they will display certain behavior in the show ring.
APHIS has attempted to implement the program with very limited resources, and due to those
limitations, it developed a system relying on part-time DQPs hired by horse industry
organizations to inspect horses at shows. Because these DQPs are primarily hired from show
industry participants, they have an inherent conflict of interest—they are reluctant to issue
violations since excluding horses from the show inconveniences their employers, and makes it
less likely they will be hired for other shows. They are also subject to a conflict of interest
because, while they are acting as a DQP at one show, they may be an exhibitor at another show,
and the exhibitor of the horse they are examining might later act as the DQP.18 Due to this
ineffective inspection system, the Horse Protection Act is not being sufficiently enforced and the
practice of abusing show horses continues.

In response to public awareness of the practice of soring show horses, Congress passed the Horse
Protection Act in 1970. 19 APHIS administers the Horse Protection Program to protect show
horses from the abusive practice of soring, and prevent sored horses from participating in shows,
sales, exhibitions, or auctions. However, the Horse Protection Act specifically authorizes no
more than $500,000 each year to administer this program. These funds are used to cover travel,
salaries, and other expenditures for the APHIS employees involved in the Horse Protection
Program.

When APHIS implemented the program, its available resources were not sufficient to send
agency employees to every horse show. Given its funding limitations, APHIS codified into
regulations a system whereby horse industry organizations were responsible for accrediting,
hiring, paying, and disciplining individuals who would inspect horses at their shows. To ensure
that the industry-hired DQPs are inspecting horses as required under the law, APHIS uses its
available resources to send APHIS employees to as many horse shows as possible, where they
monitor DQPs and perform their own independent inspections.

In our discussions with APHIS officials, OIG and APHIS have together reached the conclusion
that the system of inspections based on DQPs is not working to accomplish the goals of the law,
primarily because DQPs are not independent of the horse show organizers who employ them.
The horse industry organizations sponsor shows to promote and exhibit horses and to generate
income from ticket sales, concessions, and entry fees; they also license DQPs. When horse show

18
   We use the term “exhibitor” in the report to refer to a show horse’s owner, trainer, or other handler. Horse Protection Act regulations state that
the term “exhibitor” refers to “(1) any person who enters any horse, any person who allows his horse to be entered, or any person who directs or
allows any horse in his custody or under his direction, control or supervision to be entered in any horse show or horse exhibition; (2) any person
who shows or exhibits any horse, any person who allows his horse to be shown or exhibited, or any person who directs or allows any horse in his
custody or under his direction, control, or supervision to be shown or exhibited in any horse show or horse exhibition; (3) any person who enters
or presents any horse for sale or auction, or any person who allows any horse in his custody or under his direction, control, or supervision to be
entered or presented for sale or auction in any horse sale or horse auction; or (4) any person who sells or auctions any horse, any person who
allows his horse to be sold or auctioned, or any person who directs or allows any horse in his custody or under his direction, control, or
supervision to be sold or auctioned.”
19
   Horse Protection Act, 15 U.S.C. §1821-1831.


 Audit Report 33601-2-KC                                                                                                                         10
management designates and appoints DQPs to inspect horses at a show, then horse show
management is relieved of its responsibility and any liability regarding the Horse Protection Act.
Essentially, the horse show management gets the best of both worlds–use of DQPs so its liability
is limited regarding the Horse Protection Act and an ineffective DQP process that rarely finds
horses that are sore or eliminates horses from their show. The DQPs work within the horse
industry and understand that they will not please their employers by excluding horses from the
show due to violations of the Horse Protection Act. In the established system, DQPs have a
direct conflict of interest with enforcing the law and regulations. The overall result is a
compromised inspection process where some DQPs overlook violations and fail to issue
violations to exhibitors who abuse their horses.

APHIS officials agreed that DQPs do not properly enforce the Horse Protection Act, and that
there are conflicts of interest affecting DQPs’ ability to independently enforce the law and
regulations. They explained that the DQP system was established as a way of uniformly
enforcing the Horse Protection Act when APHIS personnel could not be present due to the
agency’s limited funding for the program, but they stated that the system was not functioning as
intended. Our review of APHIS’ records found that DQPs are much more likely to find evidence
of soring when APHIS employees are present than when they are not, as illustrated by the
following table:

                                                                                                    Violations        Percentage
    Horse
                       Show                       Shows         Percentage           Total           Issued            of Tickets
   Industry                         Total
                      Season                    Attended        Attended by        Violations         When           Issued When
 Organizations                      Shows
       20, 21        Reviewed                   by APHIS          APHIS             Issued         APHIS Was         APHIS Was
                                                                                                     Present            Present
     HAWHA              2006          30             2                 7                 7                3                 43
       HPC              2007          22            1                 5                 5                2                 40
      KWHA              2005          113           11                10               154               98                64
      KWHA              2006          126           6                 5                119               32                27
      KWHA              2007          117           6                 5                121               74                61
     MFTHBA             2005          28            1                 4                 11               3                 27
     MFTHBA             2007          20            1                 5                 1                1                 100
      NHSC              2005          280           20                7                662              398                60
      NHSC              2006          285           22                8                983              285                29
      NHSC              2007          280           20                7                480              229                48
      NHSC              2008          252           16                6                477              280                59
     SSHBEA             2005          34            1                 3                 5                3                 60
     SSHBEA             2008          20            1                 5                 4                1                 25
     Average                                                      6 percent                                            49 percent

On average, APHIS employees were present at only 6 percent of shows, yet DQPs issued
49 percent of violations at these shows.




20
   Horse industry organizations include the Heart of America Walking Horse Association (HAWHA), Horse Protection Commission (HPC),
Kentucky Walking Horse Association (KWHA), Missouri Fox Trotting Horse Breeders Association (MFTHBA), National Horse Show
Commission (NHSC), and Spotted Saddle Horse Breeders and Exhibitors Association (SSHBEA).
21
   T he data pertain to 6 of the 14 horse industry organizations for which we received APHIS reports on the groups’ operations.


 Audit Report 33601-2-KC                                                                                                             11
I.      DQPs Do Not Always Ins pect Horses in Accordance with the Horse Protection Act
        and APHIS Regulations

We attended five Tennessee walking horse shows—three with APHIS personnel and two without
them. Although one of these five shows was cancelled as soon as we arrived and before APHIS
personnel could inspect any horses, we were able to observe how 14 DQPs inspected horses at
4 shows. We also reviewed APHIS veterinary medical officers’ show reports for an additional
31 shows.

Based on these observations, we found that 3 of the 14 DQPs (21 percent) did not inspect horses
for evidence of soring in compliance with laws and regulations, even though most were aware
they were being directly observed. 22 The show reports noted five similar incidents involving an
additional four DQPs. APHIS officials stated that these problems often occur because the DQPs
come from within the horse show industry, and are paid by the horse industry organizations.
Therefore, they associate themselves much more closely with the needs of the exhibitors than
with the horses they are there to protect. As one DQP told an APHIS veterinarian, he was “a
trainer himself,” he was “here for the trainers,” and “these people are just trying to make a
living.” The APHIS veterinarian explained to the DQP that “he was not there as a representative
for the trainers,” that “his role was to identify [Horse Protection Act] violations if they were
present, document them, inform the custodians of the violation, dismiss the horse from the class,
and issue a [horse industry organization] ticket for the violation.”

We provide two examples of the deficient inspections we or APHIS personnel observed when
visiting horse shows:

·    At one of the three shows we attended with APHIS, we observed a DQP who did not perform
     inspections according to regulations. Instead of issuing a violation when he observed a horse
     that had been sored, the DQP informed OIG and APHIS veterinarians that he gave exhibitors
     three warnings—or what he termed “freebies”—before he would write a ticket. These
     warnings were issued if he observed an exhibitor stewarding a horse, if he found a horse that
     was mildly sore, or if he found a small area on a horse’s pastern that appeared to be
     inflamed. 23 Regulations do not allow for the issuance of such warnings; DQPs are to
     disqualify horses in violation and issue appropriate penalties for violating the Horse
     Protection Act. We asked the DQP how many tickets he had issued in the last year—he
     replied that he had issued only one.

·    At another show, one we attended without APHIS personnel, we observed a DQP who did
     not always observe horses while they were moving, and kept his back turned to the horses as


22
   Due to the volatile atmosphere of the shows, we did not directly confront these DQPs concerning their problematic inspection technique. In
some instances, we observed DQP inspections by purchasing tickets to the shows and observing from public spaces adjacent to the inspection
areas.
23
   Stewarding is a practice employed by exhibitors who use soring to force horses to stand still for inspection even if they are in pain. T echniques
generally involve a stable employee palpating the horse’s front legs; if the horse flinches from the pain of soring, another employee injures the
horse by hitting it in the head, using a cigarette to burn its tongue, or other painful methods. Eventually the horse learns to stand still for the
lesser pain of inspection. Exhibitors may give a horse subjected to stewarding a cue in the inspection area to remain still, such as holding the
horse’s rein tightly, pinching the horse’s lip, or staring directly into the horse’s eye, which may be a clue to a DQP or veterinarian that the
exhibitor is stewarding the horse. The operating plan, an agreement between APHIS and horse industry organizations on operating practices and
penalties for violations, states that if a DQP or veterinarian detects stewarding, the horse should be excused and show management should be
notified.


 Audit Report 33601-2-KC                                                                                                                         12
      they walked around cones in a figure-eight pattern. 24 Unless he observed the horses directly,
      he could not see if they were limping, walking slowly, or having difficulties turning. This
      DQP also declined to inspect horses that placed first, as required by regulations. We
      observed more than one first-place horse return to the inspection area after the class, and the
      DQP did not inspect the horses or weigh action devices, as required by regulations. 25 The
      DQP simply waved the horses through, stating that they were fine. We also noted that the
      DQP did not examine horses properly, which is important because an improper technique
      could fail to uncover evidence of soring. 26 Instead of palpating the horse’s pastern area with
      his thumbs in a consistent pattern to detect sore areas as required, the DQP gripped each
      horse’s pastern with his hand in two or three places, and then moved on to the opposite leg.
      When we spoke to APHIS officials about this DQP’s inspection technique, they stated that
      DQPs generally perform inspections properly during training sessions, but then revert to
      improper inspection techniques at shows so that they can allow more horses to pass
      inspection and avoid issuing penalties to exhibitors for violating the Horse Protection Act.

Many of these problems occurred while DQPs were being observed by OIG auditors, APHIS
personnel, or both. 27

II.        DQPs Do Not Always Issue Violations to the Responsible Individuals to Avoid
           Penalizing Exhibitors

If a DQP finds evidence that a Horse Protection Act violation has occurred, he or she is
responsible for issuing a ticket to the individual or individuals responsible for committing the
violation. 28 We found, however, that DQPs often do not address tickets to the individuals who
violate the Horse Protection Act; instead, they issue them to an exhibitor’s stable hand, friend,
family member, or other individual so the exhibitor responsible for abusing the horse can avoid
being penalized.

APHIS employees (veterinarians, animal care inspectors, and national office officials) we
interviewed at shows stated that the practice of penalizing someone other than the horse’s
exhibitor was a frequent problem, and that it allowed exhibitors who sore their horses to continue
to compete in shows and other events without serving any penalties for their actions. The agency
veterinarians explained that exhibitors often send in their children, older relatives, friends, stable
hands, or other individuals to sign tickets involving Horse Protection Act violations. An APHIS
Review and Analysis Branch review also identified this problem, and stated that, “[a]s it stands,
most head trainers are escaping penalties for many horses.” The APHIS reviewer cited at least
one instance where a DQP changed the name on a ticket based on a phone call to the stable and
also noted one particular stable had many suspensions issued to employees rather than the head


24
   9 CFR 11.21 (a)(1). DQPs are directed to have exhibitors walk and turn the horse to determine if it exhibits signs of soreness.
25
   Regulations define an action device as, “ …any boot, collar, chain, roller, or other device which encircles or is placed upon the lower extremity
of the leg of a horse in such a manner that it can either rotate around the leg, or slide up and down the leg so as to cause friction, or which can
strike the hoof, coronet band, or fetlock joint.” Regulations state that action devices cannot weigh more than 6 ounces each; cannot contain sharp
edges, drop links, or twisted links; and cannot strike the coronet band of the horse’s hoof.
26
   9 CFR Part 11.20(b)(2)(iv).
27
   When we attended shows without APHIS, the DQPs did not know that they were being observed by USDA personnel. We purchased tickets to
the shows and did not identify ourselves to anyone, including DQPs and show management. We observed DQP inspections from public spaces
near the designated inspection area.
28
   9 CFR 11.7(d)(1-3) and 9 CFR 11.20(b)(3).


 Audit Report 33601-2-KC                                                                                                                        13
exhibitor, who directs the employees while they are working with the horses at the stable. In
these cases, DQPs issued tickets to stable employees rather than to the exhibitors actually
responsible for the condition of the horses. This practice allows exhibitors to continue violating
the Horse Protection Act even if they are caught because stable employees or other individuals
serve the penalty for the exhibitors’ actions.

During our field work, we observed an instance where an exhibitor attempted to avoid receiving
a penalty. When the exhibitor was cited for a Horse Protection Act violation during a pre-show
inspection, he took his horse to the barn area while the DQP wrote the ticket. The exhibitor
returned with an older relative. The DQP explained the ticket, and asked for a signature. The
exhibitor asked the older relative to sign the ticket. She stated that she did not understand why
she was signing the form. After she became quite upset that she would be penalized for the
horse’s condition, the exhibitor agreed to sign the ticket himself.

Our review of show reports for the 2008 show season revealed other instances where DQPs
issued violations to individuals who were not responsible for the condition of the horse
inspected. APHIS officials and veterinarians explained that exhibitors often employ individuals
who may not be fluent in English or may not fully understand the Horse Protection Act; these
individuals may be sent to sign tickets for violations so that the exhibitor can avoid serving a
penalty. For example, one DQP issued a ticket for a horse whose exhibitor was Joe Smith, yet
the ticket showed the exhibitor as Paul Jones. 29 In this way, the exhibitor was able to avoid a
penalty.

OIG concluded that this sort of behavior illustrates the challenges APHIS faces in trying to
enforce the Horse Protection Act through the DQP system. Some DQPs associate their interests
so closely with exhibitors and the horse industry organizations that they have difficulty issuing
violations to the individuals who are responsible for the horse’s condition.

III.       APHIS Should Strengthen its Direct Control Over the Inspection Process

According to the Horse Protection Act, APHIS employees have the authority to inspect horses
and initiate civil proceedings against individuals who are suspected of having abused their
horses. 30 Because these proceedings can be long, expensive, and have unpredictable results,
APHIS has structured its enforcement process so that horse industry organizations and DQPs are
the primary parties responsible for issuing immediate penalties to individuals for violating the
Horse Protection Act. Such violations are not, however, civil penalties but rather violations
deriving from the operating plan horse industry organizations sign with APHIS so that their DQP
training programs can be accredited and their shows can be affiliated with an accredited
organization. 31

29
   T hese names have been changed to protect the privacy of the individuals involved.
30
   Horse Protection Act, 15 U.S.C. §1823 (e), gives APHIS personnel the authority to “ …inspect any horse show, horse exhibition, or horse
sale or auction or any horse at any such show, exhibition, sale or auction.” §1825 (b) states that, “[n]o penalty shall be assessed unless such
person is given notice and opportunity for a hearing before the Secretary with respect to such violation.” These hearings may result in
USDA issuing a civil penalty of varying monetary amounts to the individual found liable for violating the Horse Protection Act.
31
   T he operating plan, effective for the 2007-2009 show seasons, is an agreement between APHIS and the horse industry organizations on the
enforcement of the Horse Protection Act, the penalties for violations, and how APHIS will work to resolve conflicts over violations with horse
industry organization representatives. For the 2010 show season, there is no operating plan. Instead, APHIS focused on enforcing the Horse
Protection Act and regulations as written and issued reminders to the horse industry on specific items required by regulations that were not
always followed or enforced under the operating plan.


 Audit Report 33601-2-KC                                                                                                                      14
Due to this arrangement, at accredited shows (where there is an operating agreement in effect),
APHIS employees must sometimes persuade DQPs to issue violations. If an APHIS employee is
at a show and identifies a sore horse, the agency employee does not have the authority to write a
ticket for the violation directly. Instead, the agency employee must convince the DQP that a
violation occurred so that the DQP will then write a ticket. If the DQP does not agree, APHIS
collects evidence (e.g., pictures, videos, statements, etc.) for conflict resolution between APHIS
and the horse industry organization and a possible Federal case. 32 When a horse is placed in
conflict resolution, it is dismissed and is not allowed to compete, be offered for sale, or
participate in an exhibition. However, because conflict resolution can be a long and involved
process with an uncertain result, APHIS would generally prefer the DQP to issue a violation,
which results in the horse’s owner being immediately suspended.

APHIS employees also have limited options for correcting the inspection techniques of DQPs
whom they may observe at accredited shows. When APHIS employees see a DQP whose
inspection technique does not conform to the agency’s standards, they can request a letter of
warning from the horse industry organization. 33 They cannot, however, discipline a DQP
themselves.

At non-accredited shows (where the horse industry organization has not signed an operating
plan), APHIS employees can still hold the organization to the terms of the Horse Protection Act.
Since APHIS does not honor any penalty structure that may be established by horse industry
organizations at non-accredited shows, APHIS veterinarians who visit the show and observe
problems must forward any evidence of violations to APHIS’ Investigative and Enforcement
Services for potential Federal enforcement.

Because Federal investigations and enforcement can be slow, cumbersome, and culminate in
uncertain outcomes, OIG maintains that APHIS should make greater use of its ability to
negotiate a penalty before forwarding the case for investigation and enforcement. 34 Currently,
when APHIS veterinarians collect evidence for a potential enforcement case, APHIS
Investigative and Enforcement Services personnel spend time gathering additional evidence for
the case, and then forward it to OGC. OGC attorneys review the file and determine whether they
will accept the case for enforcement. OGC primarily accepts only bilateral soring and scar rule
cases for enforcement, which can allow individuals who have violated the Horse Protection Act
to a lesser degree (for example, only one pastern shows signs of soring) to continue their
practices without an appropriate penalty. 35 If APHIS were able to negotiate directly with the
violator to accept an agreed-upon penalty rather than face enforcement, APHIS could better
ensure that individuals who violate the Horse Protection Act serve an appropriate penalty.




32
   During conflict resolution, the APHIS Horse Protection Coordinator and the horse industry organization’s DQP Coordinator review the
presented evidence and try to reach an agreement on whether to issue a penalty to the individual.
33
   DQPs who receive two letters of warning lose their license permanently. Those who lose their license can request that the Administrator
reinstate their DQP license. Although APHIS officials have records of DQPs receiving letters of warning as early as 1979 for performing
inspections that did not effectively enforce the Horse Protection Act, no DQP has lost his or her license for receiving two letters of warning.
34
   9 CFR Part 12.10.
35
   Bilateral soring occurs when an exhibitor sores the horse on both front limbs.


 Audit Report 33601-2-KC                                                                                                                          15
At present, there is no clear protocol concerning when APHIS might negotiate a penalty, so the
agency is forwarding many cases for investigation that might be settled without expending
further resources on investigating and prosecuting the violator. Consistently using this authority
would also result in a more immediate penalty being issued to many individuals whom APHIS
employees have found to be in violation of the Horse Protection Act. The Animal Care division
has started to work with the Investigative and Enforcement Services staff to develop a protocol
to better use this authority.

Based on our review we concluded that, as APHIS transitions from the current DQP system and
moves to an inspection process based on independent veterinarians, it should take several steps
to address problems with how the agency interacts with horse industry organizations. It should
revise its regulations so that independent veterinarians can directly issue violations, much as
DQPs do in the current system. It should revise its regulations so that it can discipline inspectors
who do not examine horses according to the agency’s standards, which would include revoking
the USDA accreditation of any veterinarian who does not adequately inspect horses. Finally, it
should—in cases where the horse industry organization has not signed an operating plan or
where there is a disagreement with an inspector—improve its protocol for negotiating a penalty
before the case is forwarded for investigation and enforcement.

Finally, we noted that APHIS employees are attempting to enforce the Horse Protection Act
under hostile conditions. When they attend horse shows, employees are often subjected to
harassment from organizers, exhibitors, and spectators, which can include anti-Government
comments spoken over the public address system and remarks that create hostile working
conditions. For instance, at one show, an APHIS employee described how the crowd reacted to
his presence:

   At about 8:10 pm-8:20 pm a person representing show management gave a speech to the
   crowd. The subject of the speech was that the government was picking on the walking horse
   industry and that the people needed to stand up to this unjust treatment. This was met with
   cheers from the crowd. [We then] spoke with the show manager and I warned her that we
   would be forced to have this person removed from the show by our security if the tirade was
   allowed to continue. The speech continued with its scheduled topic being discussed and the
   anti-government topic dropped.

When they visit shows, APHIS employees are routinely escorted by police and security
personnel for their own protection. During one show we attended, security personnel
recommended that we have an escape plan in place in case the situation got out of hand. Based
on the attitude organizers, trainers, and spectators expressed at these horse shows, it does not
appear that the Horse Protection Act and its provisions against soring show horses are respected
at these events. It is unreasonable to expect that DQPs—part-time employees hired by the show
organizers—will be able to reliably enforce the law under conditions as hostile as these, even if
they were inclined to do so.

Given the problems described in this finding, APHIS and OIG have together reached the
conclusion that the current DQP system is not an effective means of enforcing the law. It has the
advantage of requiring horse industry organizations to train and license the DQPs; but if DQPs
are ineffective, show management is not liable for identifying sore horses. APHIS lacks

Audit Report 33601-2-KC                                                                          16
assurance that horses are being properly inspected at shows inspected by DQPs. To develop a
more effective inspection system, we recommend that APHIS abolish the DQP system and
institute a system based on inspections by veterinarians independent of the horse industry.

OIG acknowledges that replacing the DQP system with a system of independent veterinarians
will involve increased costs. However, our analysis shows that those costs could be passed along
to horse show participants, and that the costs would not be prohibitive. For example, at one
small horse show we visited, the show organizer paid a DQP a total of $175 to inspect 158
horses, or $1.11 per horse. 36 A veterinarian might charge as much as $1,000 to inspect this show,
or $6.33 per horse for a difference of $5.22 per horse. 37 Under the DQP-based system,
participants paid from $30 to $60 to enter a horse into the show; under a veterinarian-based
system, they would pay from $35.22 to $65.22 (or a 9 to 17 percent increase).

Such a system would have a number of advantages that would outweigh this relatively small cost
increase. Exhibitors would have greater confidence that other exhibitors were competing fairly;
horse show organizers would be more confident that that they were in full compliance with the
law; and Congress would have greater assurance that the Horse Protection Act is being enforced.
Moreover, asking horse show participants to pay the costs of their own regulation is not an
unreasonable solution to the problem of inspecting horses at these shows.

When we spoke to APHIS officials about abolishing the DQP system and implementing a system
based on USDA-accredited, independent veterinarians, they stated that they thought it would be
a good idea for virtually all parties. Show managers and exhibitors would be paying slightly
more for inspections, but the quality of the inspections would be much higher than with DQPs.
APHIS officials viewed this as an opportunity cost for the industry—if the industry wants to
move forward with a better inspection process, then industry officials should be willing to pay
for better inspectors.

OIG also maintains that APHIS should approach Congress to seek the necessary funding for the
Horse Protection Program, as the agency has operated the program for decades with few
resources. Even when the DQP system is abolished, APHIS will continue sending its own
employees to horse shows so that it can ensure that the independent USDA-accredited
veterinarians are inspecting horses according to the agency’s standards. In fiscal year 2007, the
Horse Protection Program’s budget was sufficient to send APHIS veterinarians only to
approximately 30 of the 463 accredited shows, or 6 percent. Given the weaknesses in the
inspection process, APHIS employees need to attend more shows to ensure that horses are
inspected adequately.

     Recommendation 1
     Abolish the current DQP system and establish by regulation that inspectors will be
     independent, USDA-accredited veterinarians that perform the inspections to assess whether



36
   T hese cost estimates do not include travel costs; however, DQPs are often paid travel costs, just as veterinarians might be if they have to travel
to reach shows. Therefore, we excluded travel costs from our analysis.
37
   APHIS officials stated that they had polled accredited veterinarians before about inspecting horses and what they would consider a fair amount
of pay for this function. The veterinarians polled quoted between $500 and $1,000 per night plus travel expenses.


 Audit Report 33601-2-KC                                                                                                                          17
  horses are sore at sanctioned horse shows, sales, and other horse-related events and obtain, if
  needed, the authority to require show managers to pay the higher cost of providing
  independent, USDA-accredited veterinarians to inspect the horses if their liability is to
  remain limited.

  Agency Response

  APHIS responded that the Agency agrees with the intent of the recommendation. APHIS
  will propose a regulatory change to abolish the current DQP licensing system and propose
  that the Agency license DQPs. Under the proposed regulations, APHIS would require and
  provide a minimum of 14 hours of specialized training to individuals pursuing DQP
  licensing. The proposed regulations will also establish strict qualification and criteria to
  prohibit conflicts of interest. DQPs having close ties with the horse show industry would be
  excluded from licensing. Horse Industry Organizations would continue to be responsible for
  hiring and compensating the DQPs to inspect horse shows, but would have to use APHIS-
  licensed DQPs.

  Additionally, APHIS will provide more outreach and recruitment activities to license
  independent, accredited veterinarians as DQPs. The Agency will display the USDA Horse
  Protection Program exhibit at the American Association of Equine Practitioners (AAEP)
  Annual Convention in Baltimore, Maryland in December 2010. APHIS will conduct a
  tabletop discussion session at the convention to inform the AAEP members about the efforts
  USDA is making to eliminate soring at horse shows and other related events. APHIS will
  meet with other associations and organizations such as, but not limited to, the American
  Horse Council and National Institute of Animal Agriculture. APHIS attended the World
  Equestrian Games in Lexington, Kentucky in September 2010, to discuss the Horse
  Protection Act with many of the accredited veterinarians that were in attendance.

  APHIS will submit the work plan by January 1, 2011, but cannot predict the timing or the
  final outcome of rulemaking.

  OIG Position

  We accept management decision for this recommendation.

  Recommendation 2
  Seek the necessary funding from Congress to adequately oversee the Horse Protection
  Program.

  Agency Response

  APHIS stated that it agreed with this recommendation. APHIS requested a $400,000
  increase in funding for fiscal year 2011 which will bring the Horse Protection budget to
  $900,000. APHIS will develop a budget and staffing plan to phase in the resources needed to
  adequately oversee the Horse Protection program, and continue to evaluate funding needs in
  future fiscal years.


Audit Report 33601-2-KC                                                                        18
  OIG Position

  We accept management decision for this recommendation.

  Recommendation 3
  Revise the agency’s regulations so that independent USDA-accredited veterinarians and
  APHIS veterinarians can directly issue violations, much as DQPs do in the current system.

  Agency Response

  APHIS agreed with the intent of the recommendation and provided that, by creating an
  improved and more accountable DQP program, the Agency will be better able to ensure that
  Horse Industry Organizations assess appropriate penalties. APHIS has mandated a penalty
  protocol for every Horse Industry Organization to implement and enforce in order to
  maintain USDA certification. APHIS will require each Horse Industry Organization to
  include the penalty protocol in their rule book and implement the penalty protocol by
  January 1, 2011. Each Horse Industry Organization will be required to submit their rule
  book to APHIS for review and approval before it is implemented during the 2011-2012 show
  season. Since APHIS will have direct responsibility for the licensing of DQPs, APHIS will
  be able to hold DQPs accountable for issuing violation findings.

  The Horse Industry Organizations are responsible for enforcing Horse Protection Act
  penalties, with APHIS overseeing the process. Show management will be held liable and
  responsible if a Horse Industry Organization DQP is not utilized during the horse show, sale,
  or other related event. APHIS will submit a work plan to propose a regulatory change to
  decertify a Horse Industry Organization that fails to enforce the Horse Protection Act and
  penalties set forth by APHIS. With enhanced authority, APHIS will establish criteria and
  procedures to immediately suspend the operation of a Horse Industry Organization.

  APHIS will submit the work plan by January 1, 2011, but cannot predict the timing or the
  final outcome of rulemaking.

  APHIS will continue to conduct yearly Horse Industry Organization office audits. The audit
  results will be used for risk analysis to determine the performance level of the Horse Industry
  Organizations enforcing the Horse Protection Act, future shows to monitor, and if the Horse
  Industry Organizations followed the auditors’ recommendations. The audit reports will
  continue to be posted on the APHIS Animal Care website.

  OIG Position

  We accept management decision for this recommendation.

  Recommendation 4
  Revise its regulations so that APHIS can discipline inspectors who do not examine horses
  according to the agency’s standards, which would include revoking the USDA accreditation
  of any veterinarian who does not adequately inspect horses.


Audit Report 33601-2-KC                                                                       19
  Agency Response

  APHIS stated that it agreed with this recommendation. Within the proposed regulations for a
  new DQP licensing program, APHIS will incorporate its authority to directly discipline
  DQPs, including DQPs who are accredited veterinarians. APHIS will develop a work plan to
  add enforcement of the Horse Protection Act under duties for accredited veterinarians by
  January 1, 2011. Therefore, the accreditation for a veterinarian will be suspended or revoked
  if they do not carry out their duties under the Horse Protection Act. The license of a DQP
  who is not an accredited veterinarian can be suspended or revoked by APHIS if they fail to
  enforce the Horse Protection Act. APHIS will submit a work plan to propose a regulatory
  change to directly discipline DQPs by January 1, 2011, but cannot predict the timing or the
  final outcome of rule making.

  APHIS is utilizing intermittent and full time field personnel to: (1) increase the number of
  shows/sales attended by APHIS; (2) to monitor the inspections of the DQPs; (3) to develop
  and implement additional training for the APHIS inspectors and DQPs; and (4) to monitor
  the Horse Industry Organizations implementation of the penalty protocol.

  APHIS will reiterate to the Horse Industry Organizations in 2011 that all parties responsible
  for the horse (trainer, owner, rider, transporter, custodian, etc.) will be penalized under the
  APHIS penalty protocol. APHIS will monitor the Horse Industry Organizations process of
  penalizing the violators of the Horse Protection Act by reviewing the Horse Protection Act
  database. APHIS will also verify that the penalty protocol is implemented during the yearly
  Horse Industry Organization office audits.

  In the interim, APHIS will continue to monitor the DQPs who are licensed and certified by
  the Horse Industry Organizations and recommend letters of warning and cancellation of
  licenses when APHIS observes lack of performance by DQPs during unannounced visits to
  horse shows and related events.

  OIG Position

  We accept management decision for this recommendation.

  Recommendation 5
  Develop and implement protocols to more consistently negotiate penalties with individuals
  who are found to be in violation of the Horse Protection Act.

  Agency Response

  APHIS stated that it agreed with this recommendation. APHIS developed a penalty protocol
  that every Horse Industry Organization will be required to include in their rule books. The
  Horse Industry Organizations will also be required to submit their rule books to APHIS for
  review and approval. APHIS will implement this requirement on January 1, 2011.




Audit Report 33601-2-KC                                                                          20
     APHIS is utilizing intermittent and full time field personnel to conduct unannounced visits to
     horse shows to monitor DQPs’ issuance of tickets and to ensure the DQPs are completely and
     accurately collecting the information on the violators during the show or other related event.

     APHIS will closely monitor the appeal hearing process conducted by Horse Industry
     Organizations by attending, unannounced, randomly selected appeal hearings. APHIS will
     require Horse Industry Organizations to submit written justification of a dismissed violation.
     APHIS will also verify that the hearing protocol was followed during their yearly Horse
     Industry Organization office audits.

     OIG Position

     We accept management decision for this recommendation.

Finding 2: APHIS Needs to Improve its Controls for Ensuring that Horse
Protection Act Violators Do Not Participate in Shows While Suspended
Individuals issued a violation for abusing horses under the terms of the Horse Protection Act are
suspended from participating in horse shows and other events for a period of time. During this
time period, suspended individuals cannot transport horses to the show grounds, prepare horses
in the barn or warm- up areas for the show, or engage in other horse show-related activities. We
found, however, that APHIS does not maintain and distribute an accurate, up-to-date list of
suspended individuals to show managers, DQPs, and APHIS employees—a list against which
horse show participants can be checked to verify that they are not suspended. Some horse
industry organizations send monthly suspension lists to APHIS, while other groups send their
suspension lists to other horse industry organizations instead of APHIS. This occurred because
horse industry organizations do not always cooperate with APHIS personnel by providing
accurate and timely information concerning who has been suspended, and horse show managers
do not provide APHIS personnel with a complete list of all the individuals planning to exhibit
horses during a given show, sale, or event. The suspension list that APHIS does distribute may
not contain all suspended individuals since APHIS may not receive suspension information from
all horse industry organizations. Aware of this problem, APHIS officials had proposed using a
computerized suspension list that show organizers could check as participants entered horses into
the show, but the organizers of smaller horse shows resisted, claiming that they were not always
able to use a computerized system at horse shows. Without accurate information concerning
who is suspended, who has paid entry fees for a show, and who is planning to participate, show
managers, DQPs, and APHIS employees cannot fully enforce the Horse Protection Act, and
suspended exhibitors may be allowed to participate.

When individuals receive a penalty for violating the Horse Protection Act, they are prohibited
from participating in horse shows, sales, or exhibitions for a specified period. (See Exhibit B for
a description of penalties and prohibitions that apply when an individual is serving a suspension.)
If APHIS finds that individuals serving a suspension violate the terms of the suspension by
participating in a horse show, sale, or exhibition, they can face Federal enforcement and fines of
$4,300 per incident. 38 In addition, horse shows, horse sales, horse exhibitions, and show

38
  Since 2007, there has been one case pursued against an individual found to be participating in horse shows, sales, etc., while serving a
suspension for a Horse Protection Act violation. This case is curr ently being investigated by APHIS Investigative and Enforcement Services.


 Audit Report 33601-2-KC                                                                                                                       21
managers who knowingly allow a suspended individual to participate in the show, sale, or
exhibition face enforcement with fines similar to the individual’s penalty. 39

We found, however, that APHIS does not have an adequate control for ensuring that suspended
individuals do not participate in horse shows, sales, or exhibitions. At present, the agency does
not require APHIS inspection teams, DQPs, or show organizers to check each participant against
the suspension list. Instead, APHIS employees refer to the list when they recognize someone
they suspect may be on the list, but they do not know every person at a show, nor do they attend
every show. Show organizers should obtain information on all individuals responsible for the
condition of each horse entered (e.g. owner, trainer, handler, etc.) and check all responsible
individuals against the suspension list to ensure that no one involved with the horses entered is
currently on suspension for violating the Horse Protection Act. Additionally, it would be best if
APHIS employees, DQPs, and show managers could check the horse show entries against the
suspension list in advance, so they could identify any violators or suspected violators before
inspections begin.

When we spoke to APHIS officials about this problem, they agreed that there was no reliable
control preventing suspended individuals from participating in shows or other events, and they
stated that they would develop a policy requiring APHIS employees, DQPs, and show organizers
to check the suspension list against participants at each show. Officials discussed using a
database or printouts of the most current suspension list to check against participants entering
horses in the show and ensure no individuals on suspension participate. APHIS personnel also
explained that they are working with show management to obtain class sheets and entry sheets at
the beginning of the show or in advance of each class, if possible, so the inspection team can
check the information against the list of suspended individuals.

In addition to ensuring that suspended individuals do not participate in shows, sales, and other
events, APHIS faces additional challenges when enforcing the Horse Protection Act. We found
that APHIS must ensure that exhibitors do not attempt to re-enter a horse into an event after it
has already been disqualified due to Horse Protection Act violations. We found that APHIS
needs to clarify its regulations regarding whether a horse that has been disqualified in one class is
also disqualified from other classes at the same show. Regulations do not prohibit a horse that
was cited for a violation in one class from returning to participate in later classes, which would
entail another inspection since each horse is inspected for each class it is entered into. Because
the quality of inspections can vary based on the inspector examining the horse, re-presenting the
animal could result in a situation in which a horse that has failed an inspection for one class
could be passed for another. Exhibitors could also use numbing or masking agents on the
horse’s legs or hooves to prevent the horse from exhibiting pain when being inspected the second
time.

APHIS officials stated that inconsistent inspections plagued the 2009 Tennessee Walking Horse
National Celebration, the breed’s premier annual event. Potentially, inconsistent inspections
could also have legal consequences for enforcement of horse abusers under the Horse Protection
Act. In order to prevent this sort of situation, APHIS should suspend horses that have been cited


39
     7 CFR 3.91(b)(2)(ix) and 15 U.S.C. §1825, Section 6(c).


 Audit Report 33601-2-KC                                                                          22
with a soring violation from all classes at a given show. APHIS officials we spoke to agreed that
horses cited for violations should not be allowed to participate in later classes, and stated that
they want to ensure that when a horse is disqualified, it is disqualified from the entire show.

   Recommendation 6
   Develop and implement controls (searchable database) that identify individuals with Horse
   Protection Act violations or disqualifications to verify that individuals suspended from horse
   shows, sales, or exhibitions do not participate in these types of events when suspended. In
   addition, APHIS should include a process for receiving accurate, timely information
   regarding suspended individuals from horse industry organizations, and accurate, timely
   information regarding participants from horse show organizers.

   Agency Response

   APHIS stated that it agrees with this recommendation. As of July 19, 2010, APHIS
   developed and implemented a new web- interfaced database that each Horse Industry
   Organization is required to utilize to submit the required information under the regulations.
   Information from the database will be used to hold the management of horse shows, sales,
   etc., accountable for their responsibilities under 9 CFR 11.20. On February 2, 2010, APHIS
   began posting online current Horse Protection Act suspension lists on the USDA website.
   APHIS will create an online searchable database of Horse Industry Organization suspensions
   to be available to the public by November 1, 2010.

   OIG Position

   We accept management decision for this recommendation.

   Recommendation 7
   Require that APHIS employees, independent veterinarians (or DQPs), and horse show
   organizers check all participants responsible for the condition of horses entered in the event
   against the database of suspended individuals.

   Agency Response

   APHIS stated that it agreed with this recommendation. On February 2, 2010, APHIS began
   posting online current Horse Industry Organization suspensions on the USDA website for
   APHIS employees, independent veterinarians, DQPs and horse show organizers to identify
   people on suspension and prohibit them from showing. APHIS is currently in the process of
   gathering the data necessary to initiate investigations on show managers who have allowed
   people on suspension to show. APHIS anticipates completing the process of gathering the
   data and requesting an investigation by October 1, 2010.

   APHIS will propose a work plan to require that show managements conducting horse shows
   or related events post the suspension lists and manually check the list against those
   participating in the horse shows or related events prior to exhibiting horses. APHIS cannot



Audit Report 33601-2-KC                                                                         23
  predict the timing or the final outcome of rulemaking. APHIS will submit the work plan by
  January 1, 2011.

  On August 12, 2010, APHIS sent a memo to all Horse Industry Organization coordinators,
  reminding them that Horse Industry Organization suspensions and USDA disqualifications
  are to be enforced by all Horse Industry Organizations and show managers. APHIS
  developed a fact sheet entitled “Responsibilities of Horse Show Management.” This fact
  sheet will be sent to show managers to emphasize their responsibility to follow the
  regulations, and to ensure that individuals who have violated the Horse Protection Act do not
  exhibit horses at the show or related event. APHIS will distribute the notice by
  January 1, 2011.

  OIG Position

  We accept management decision for this recommendation.

  Recommendation 8
  Revise and enforce regulations to prohibit horses disqualified as sore from competing in all
  classes at a horse show, exhibition, or other horse-related event.

  Agency Response

  APHIS stated that it agrees with this recommendation. APHIS currently has the authority
  and enforces regulations to keep horses from competing in subsequent events after inspectors
  detect a violation. Beginning March 1, 2010, APHIS emphasized to all show managers,
  Horse Industry Organizations, and DQPs that any horse found in violation at a horse show
  will be prohibited from competing in any further classes at the horse show, exhibition, or
  horse-related event. To better ensure that horses found to be in violation do not compete in
  later events at a show, we will propose regulatory changes to require that each horse be
  clearly and uniquely identified by a reliable, objective, and permanently attached or
  embedded device. APHIS will submit the work plan by January 1, 2011, but cannot predict
  the timing or the final outcome of rulemaking.

  In the interim, APHIS will continue to conduct yearly Horse Industry Organization office
  audits with emphasis on determining if horses found in violation at a horse show or related
  event continued to show or be exhibited. By January 1, 2010, APHIS will establish and
  implement procedures to decertify a Horse Industry Organization that has been found to
  allow horses to continue to exhibit during a show. The criteria and procedures will include a
  provision to immediately suspend the operation of a Horse Industry Organization. APHIS
  will propose a regulatory change to suspend the operations of a Horse Industry Organization
  that fails to enforce the Horse Protection Act and requirements set forth by APHIS.

  APHIS will submit the work plan by January 1, 2011, but cannot predict the timing or the
  final outcome of rulemaking.




Audit Report 33601-2-KC                                                                      24
  OIG Position

  We accept management decision for this recommendation.




Audit Report 33601-2-KC                                    25
Section 2: Ensuring the Humane Transport of Horses to Foreign
Slaughter Facilities

Finding 3: APHIS Needs Stronger Penalties to Prevent Individuals with Humane
Handling Violations from Transporting Slaughter Horses
If a horse must be transported commercially to slaughter, then APHIS regulations require that it
travel in a safe and humane fashion, and the agency levies fines on owners and shippers who
violate these requirements. We found, however, that APHIS regulations do not allow the agency
to deny individuals with unpaid fines the right to ship other loads of horses. In 2008, APHIS
issued fines to 23 individuals, but 3 did not pay their fines on time. From 2005 to 2009, a total of
43 violators incurred nearly $174,000 in unpaid fines, yet APHIS allowed these violators to
continue shipping horses. APHIS officials explained that they did not foresee this problem when
the regulations were originally published in 2001, and thus they did not draft the regulations to
prevent individuals from shipping slaughter horses if they have unpaid fines. Due to these
enforcement limitations, owners have little incentive to comply with regulations, pay their fines,
and cease inhumanely handling horses bound for slaughter. During our visit to a border crossing
facility, we witnessed two loads of horses, consisting of 68 horses, bound for slaughter at the
facility even though the horses’ owner had not paid fines for humane transportation violations. 40

APHIS handling regulations establish a number of requirements which owner/shippers must
meet. They state that owner/shippers must (1) provide horses unlimited food, water, and rest for
at least 6 hours prior to loading; (2) provide horses adequate floor space in whatever conveyance
is being used; (3) segregate all stallions and other aggressive equines; (4) ensure that trailers are
free of protrusions, are not double-decked, and have adequate ventilation. The duration of a
shipment should be less than 28 consecutive hours—if a trip is longer than 28 hours, horses must
be unloaded and provided at least 6 hours of food, water, and rest before being reloaded. Horses
that are under 6 months of age, or horses that are blind in both eyes, cannot bear weight on all
four limbs, or are likely to foal during transport should not be shipped to slaughter. 41

In order to ensure that owner/shippers follow these humane handling regulations, those seeking
to transport horses across U.S. borders to foreign slaughter facilities must have the required
shipping documents completed and endorsed by the APHIS Area Veterinarian In-Charge (AVIC)
of the State where the horses are being loaded. Each load of horses has its own shipping
paperwork that must be completed by the owner and an accredited veterinarian and endorsed by
the AVIC before the horses arrive at the border crossing facility. Owners found to be in
violation of humane handling regulations can face penalties of $5,000 per horse, per violation. 42
For example, a horse that is found to be blind in both eyes and that is transported on a double-
deck trailer (i.e., two violations) would result in fines of $10,000, as shipping blind horses and
shipping any horse on a double-deck trailer are specifically prohibited.

APHIS drafted its regulations to require the humane transport of slaughter horses; however, the
agency has little recourse if owner/shippers who have been fined do not pay their penalties.

40
   Of the 68 horses observed at the border crossing facility, we observed that the shipper rejected one horse and that the foreign veterinarian
rejected five other horses. These rejected horses were not allowed to travel across the border for slaughter.
41
   9 CFR Part 88.
42
   9 CFR Part 88.6.


 Audit Report 33601-2-KC                                                                                                                          26
APHIS cannot deny subsequent shipments until the owner/shipper pays. Instead, when an
individual refuses to pay a fine levied for inhumane handling, APHIS’ collections department
attempts to collect the debt for 180 days. If the Department cannot collect the full amount, it
forwards the debt to the Treasury Department, where the debt begins accruing interest. The
Treasury Department attempts to collect the debt for 1 year, then collects bids from private debt
collection agencies for the case, and sells off the debt. The private collection company contacts
the individual who owes the penalty and attempts collection for 1 year, and if it is not successful,
the company sells the case to another private collection agent, who attempts to collect the debt
for another year. If this collection company is not successful in collecting the debt, the case
returns to the Government, where it is held for 10 years, beginning from the date the fine was
originally applied. If the debt is not repaid in that time period, the Internal Revenue Service can
pursue collection of approximately 30 percent of the debt, essentially the taxes on the unearned
income. When a case sits in holding for up to 10 years, it is possible for personnel to lose track
of it before it reaches the end of the 10-year statute. In this manner, owners are able to continue
violating humane transport regulations without paying the fines assessed by APHIS. From 2005
to 2009, a total of 43 violators 43 incurred nearly $174,000 in unpaid fines, yet APHIS allowed
these violators to continue shipping horses.

APHIS could greatly enhance its ability to enforce the humane handling regulations of the
Slaughter Horse Transport Program if it could withhold documents required to ship horses across
the border to slaughter from owners and shippers who have unpaid fines. APHIS officials agreed
that such improvements would encourage more compliance from owners. Officials stated that
they would need to provide AVICs with a list of all owners who have outstanding fines or
penalties so that the AVICs could check the list before approving any shipping documents.

       Recommendation 9
       Revise Slaughter Horse Transport Program regulations to allow APHIS to withhold
       endorsement of shipping documents from individuals who violate humane handling
       regulations and who have fines outstanding.

       Agency Response

       APHIS stated that it agrees with the intent of the recommendation and agrees that those who
       have violated the humane handling regulations and failed to pay any assessed penalties should
       not receive endorsement of any subsequently requested shipping documents. APHIS will seek
       advice from the USDA Office of the General Counsel (OGC) to determine the best way to
       effectuate this concept for the Slaughter Horse Transport Program. Initial conversations with
       OGC indicate that there may be some legal issues with singling out violators of selected
       animal health regulations and not all violators of all other Agency regulations. APHIS will
       work with OGC to evaluate the best options to revise those regulations necessary that will
       establish an agency wide policy that those who have violated the humane handling regulations
       and failed to pay the associated penalties shall not receive endorsement of any subsequently
       requested shipping documents. APHIS will complete this evaluation by May 31, 2011.


43
     Per APHIS’ Investigative and Enforcement Services.


 Audit Report 33601-2-KC                                                                          27
     OIG Position

     We accept management decision for this recommendation.

     Recommendation 10
     Develop and maintain a control (database or list) of all individuals who have violated the
     regulations of the Slaughter Horse Transport Program and have not paid the associated fines
     and provide the data to all APHIS officials and private veterinarians endorsing shipping
     documents for horses being shipped to slaughter.

     Agency Response

     APHIS stated that it agrees with the intent of the recommendation and agrees that those who
     have violated the humane handling regulations and failed to pay any assessed penalties should
     not receive endorsement of any subsequently requested shipping documents. APHIS will seek
     advice from the USDA OGC to determine the best way to effectuate this concept for the
     Slaughter Horse Transport Program. Initial conversations with OGC indicate that there may
     be some legal issues with singling out violators of selected animal health regulations and not
     all violators of all other Agency regulations. APHIS will work with OGC to evaluate the best
     options to revise those regulations necessary that will establish an agency wide policy that
     those who have violated the humane handling regulations and failed to pay the associated
     penalties shall not receive endorsement of any subsequently requested shipping documents.
     APHIS will complete this evaluation by May 31, 2011.

     OIG Position

     We accept management decision for this recommendation.

Finding 4: APHIS Needs to Strengthen its Controls over Backtags for the
Transport of Horses to Slaughter
When owner/shippers transport horses to slaughter, APHIS requires them to apply backtags once
the animals have passed inspection by a USDA-accredited veterinarian. 44 That inspection is
intended to verify that the horse is fit to be transported, according to Federal regulations; the
backtag is supposed to allow APHIS to trace horses back to their owner. We found, however,
that owner/shippers could acquire tags and apply them to horses that were not inspected by an
accredited veterinarian, or that failed inspections, and are not fit to travel. This occurred because
current regulations do not outline effective controls over the distribution, use, and tracking of
backtags. 45 When officials drafted the regulations, they were informed that accredited
veterinarians, who would be completing health certificates for slaughter horses being shipped
across U.S. borders, would not be willing to apply backtags or oversee the application of
backtags to the horses when they were prepared for loading. Although APHIS officials stated
that they would have preferred to issue tags to an accredited veterinarian, they felt that their only

44
   A “USDA-accredited veterinarian” is not the same as APHIS’ Area Veterinarian In-Charge, or AVIC. The accredited veterinarian is a
veterinarian in private practice that is periodically paid to perform various tasks for USDA, such as inspecting horses and signing health
certificates. AVICs are USDA employees.
45
   9 CFR Part 88.


 Audit Report 33601-2-KC                                                                                                                     28
option was to provide backtags to owners. Due to control weaknesses relating to these backtags,
owners can transport uninspected horses that are not fit for shipment. While border inspections
may catch some horses that are not fit to travel, an APHIS inspector is not present at every
border crossing facility and foreign inspectors may not reject horses that are unfit to travel. The
APHIS field coordinator—who alone is responsible for administering this program in the field at
every border crossing facility on both the Canadian and Mexican borders—stated that he has
observed instances where it appears horses that do not meet transport regulations are being
transported, yet were wearing backtags that are supposed to indicate that they are fit to travel.

During our visit to a border crossing facility, we observed two loads (68 horses) bound for
slaughter in Mexico. Of these 68 horses, the shipper removed one horse because it did not match
the description listed on shipping documents for the backtag it was wearing. Also, the foreign
veterinarian rejected five other horses because they did not meet Slaughter Horse Transport
Program regulations, yet four of these five had backtags that indicated they met the requirements.
The fifth horse had lost its backtag during transport to the border and was not allowed to cross
the border without a backtag.

Horses being transported across U.S. borders for slaughter in foreign facilities must be identified
by USDA-issued slaughter backtags. These bright green backtags each have a unique identifying
tag number that APHIS can use to trace a specific animal back to the individual who received the
tag. 46

Currently, when an owner prepares a group of horses for shipment to a foreign slaughter facility,
the horses are inspected by a USDA-accredited veterinarian no more than 30 days prior to
shipment. The accredited veterinarian checks each horse offered for shipment for health and
exposure to infectious diseases, and completes a health certificate stating that the horses are
healthy and fit for travel. 47 This form contains the USDA slaughter horse backtag number and a
general description of the age, sex, and color of the horses. Immediately prior to loading, the
horses must be provided with not less than 6 hours of unlimited access to food, water, and rest,
and the USDA backtag is to be attached to each animal. Owners are to apply the backtag to each
horse that is deemed healthy enough for travel. The owner must also complete the “USDA
Owner/Shipper Certificate,” certifying the date and time the horses were loaded on the
conveyance, the backtag number and description of each horse loaded, and the destination of the
load of horses. 48 The owner/shipper must also certify on the form that the horses were provided
the required food, water, and rest prior to shipment, that the horses can all bear weight on all four
limbs, are not blind in both eyes, that no pregnant mare is likely to foal (i.e., give birth) during
the trip, and that no foals under 6 months of age are included on the shipment. The
owner/shipper must then have the health certificate and shipping certificate endorsed by the
AVIC in the State where the horses were loaded for shipment. 49

Upon arrival at the border crossing facilities, the shipping documents and horses are inspected by
animal health veterinarians from the receiving country (i.e., Canada or Mexico). If the host


46
   9 CFR 88.4(a)(2).
47
   VS Form 17-140, United States Origin Health Certificate.
48
   VS Form 10-13, Owner/Shipper Certificate, Fitness To Travel To a Slaughter Facility.
49
   9 CFR Parts 88.4(a)(2), 88.4(a)(3)(vi), and 88.5(c); VS Memorandum 555.18 Sections III.A.2, IV.B, VI.A.1, and VIII; and VS Form 17-140,
United States Origin Health Certificate.


 Audit Report 33601-2-KC                                                                                                                29
country veterinarian accepts the load of horses, they are allowed entry into the country and are to
be taken directly to the slaughter facility. If a single horse or load of horses is rejected, the
rejected animals are not allowed entry into the foreign country and must return to the owner.

The owner/shipper certificate was designed as a trace-back tool to investigate and document
program violations. Regardless of whether horses from the United States are processed in
Canada or Mexico, the owner/shipper certificates are to be returned to APHIS headquarters
where the certificate information is maintained and documented violations from the certificates
are subject to investigation for enforcement or fines by APHIS. Individual backtag numbers
affixed to the horses are recorded on the shipping documents.

We found that there were three weaknesses in APHIS controls over slaughter horse backtags.
Based on our review, we found that owners can apply backtags to horses that were not examined
and may not be fit to travel; that owners can circumvent humane handling regulations by
designating horses as pleasure horses rather than slaughter horses; and that owners can use tags
without being tracked by APHIS.

   ·   Since owners apply the tags to horses they want to transport without verification by
       APHIS, they could apply the tag to a horse that was not examined and may not be fit to
       travel humanely. APHIS officials stated that they recently prosecuted an individual for
       sending shipping and health documents with a load of horses where tag numbers on the
       animals matched the documents, but the descriptions on the shipping documents did not
       match the horses. This could have been caused by owner/shippers putting tags on the
       wrong horses, or an accredited veterinarian signing health documents for horses that were
       not examined. Owners have a financial incentive to transport sick or injured horses that
       can be presented as if they were fit to travel. If an owner/shipper can include a few extra
       sick or injured horses into loads of otherwise healthy ones, the profit margin goes up
       because more horses were shipped across the border at once.

   ·   Owners can also attempt to circumvent humane handling regulations by taking horses
       over the border without backtags. If horses are designated as pleasure horses or rodeo
       horses, then they require only basic health certificates and immunization records to cross
       the border. Once they are in a foreign country, they might then be sent to a slaughter
       facility without inspection by a USDA-accredited veterinarian or without the appropriate
       backtag and USDA shipping documents. As a result, owners may not truthfully
       designate their intentions when transporting horses for slaughter. APHIS officials stated
       that this practice is frequently used to get horses across the border without following
       humane handling regulations. The APHIS Slaughter Horse Transport Program Field
       Coordinator stated that foreign slaughter plants should question a load of U.S. horses that
       arrive without backtags and shipping documents, but that it was likely that they would
       simply accept the horses for slaughter.

   ·   Since backtags are intended to be used to trace a horse back to its owner, the tags are
       designed to be accountable items. When APHIS provides these tags to owners, APHIS
       personnel record which numbered tags are being issued to the individual. The tags are
       intended to track who received the tag, when the horse crossed the border with the tag,
       and when the horse arrived at the slaughter facility.

Audit Report 33601-2-KC                                                                          30
       We found, however, that the APHIS database that was intended to collect information
       from the Owner/Shipper Certificate, including backtag numbers, is not operational, and
       APHIS is currently using a scanning system to maintain copies of completed shipping
       documents. Personnel can still determine who received each tag in the event of a
       violation, but they cannot track any other details about the horse, such as when it reached
       the border or the slaughter facility. In 2006, program officials were directed to
       discontinue the use of the data tracking system, and the two data entry positions
       dedicated to entering slaughter horse data into the tracking system were eliminated.
       APHIS officials stated that they believed that the database did not provide beneficial
       information that justified the cost involved in maintaining the database. Officials stated
       that as U.S. horse slaughter plants closed, the Slaughter Horse Transport Program
       received less funding, and thus they decided to cut these positions. However, the current
       paperwork system does not allow users to easily search the data for violations and
       evidence for enforcement, so tracking backtags is difficult. The area office can determine
       who received each backtag and when the tags were issued, but it does not track the tag
       beyond issuance to an owner.

       APHIS officials agree that an automated database where information could be entered
       and maintained for each horse shipped to slaughter would make investigating possible
       violations easier, and would allow program personnel to obtain such information as
       buying trends and common shipping routes. However, officials stated that they preferred
       to focus their resources on compliance with regulations rather than a database that may
       not provide adequate benefit for the cost involved in developing and maintaining such a
       tracking system. Officials stated that they currently rely on the paperwork being returned
       from the foreign veterinarian, which should identify any horses that did not meet the
       regulations. They do not, however, have a way to reconcile that all horses that were
       approved for shipping to slaughter were inspected.

We concluded that the control weaknesses relating to the backtags and the transportation of
horses for slaughter in foreign facilities were significant enough to prevent APHIS from ensuring
that these tags are applied only to horses that are fit to travel, according to its regulations.

APHIS has drafted a proposed rule that would increase its authority over slaughter horses being
transported throughout the United States, which OIG agrees would provide improvements to the
current Slaughter Horse Transport Program. Currently, the program’s regulations apply only to
horses being shipped directly to a slaughter facility—these animals are not covered by the
regulations on other portions of their journey, such as to a feedlot or other intermediate holding
facilities. For example, under the current version of the regulations, shippers can transport
horses from across the country to a holding facility within a few miles of the border without
complying with these transport regulations. Once at the holding facility, the horses must now be
transported the few miles to the border in accordance with the slaughter horse transport rules.
The proposed rule would ensure that horses would be identified as slaughter horses at the sale
barn, auction, or other market, and that the humane handling regulation would apply to all
designated slaughter horses from that point forward, including horses that are delivered to




Audit Report 33601-2-KC                                                                         31
feedlots or intermediate holding facilities before being shipped across the border for slaughter. 50
Because horses must be transported greater distances to reach foreign slaughter facilities, the
proposed rule would be valuable in improving the humane transport of horses for slaughter.

Controls could be strengthened if APHIS personnel, other qualified animal health technicians, or
veterinarians inspect slaughter horses before they are loaded, and themselves apply backtags to
the horses to properly identify each horse being shipped to slaughter. APHIS officials stated that
with their limited funding—the program receives $400,000 annually—they could not hire
additional personnel to perform these inspections. In addition, portions of the Slaughter Horse
Transport Program budget have been redirected to other agency needs.

At present, the Slaughter Horse Transport program’s budget is barely sufficient to pay the field
coordinator’s salary and cover day-to-day expenses. In fiscal year 2008, the Slaughter Horse
Transport Program’s budget was reduced to approximately $245,000; in fiscal year 2009, the
program’s annual budget was reduced to approximately $120,000. Officials stated that the most
feasible option to increase control over backtags is to revise APHIS regulations to issue backtags
to USDA-accredited veterinarians or other qualified personnel so they can apply the tags or
oversee the application of the tags at the time of inspection. O fficials stated that they would
modify the 30-day inspection window that currently exists to require that the accredited
veterinarians inspect the horses just prior to movement. Officials believe that this change will
add more control over the backtags and will prevent owners or shippers from applying tags to
horses that do not comply with Slaughter Horse Transport Program regulations.

Overall, OIG concluded that APHIS is operating this program with extremely limited resources.
To some extent, the agency can strengthen some of its controls over the Slaughter Horse
Transport Program at little or no cost, but ultimately APHIS will need to reallocate or obtain the
resources it needs to accomplish its mission.

     Recommendation 11
     Revise regulations or implement adequate controls to ensure that APHIS provides backtags
     to qualified personnel who can inspect horses bound for slaughter and apply, or oversee the
     application of, backtags when approving transport documentation.

     Agency Response

     APHIS stated that it agrees with the recommendation, is committed to implementing the
     changes, and will evaluate various options including:

          ·     Reviewing the proposed rule to evaluate what changes are possible and/or necessary
                to require that Accredited Veterinarians and/or State animal health officials (in
                addition to the owner/shipper) either fill out the 10-13’s (VS Form 10-13,
                Owner/Shipper Certificate, Fitness To Travel To a Slaughter Facility) and apply
                backtags themselves, or sign the 10-13’s.


50
  T his proposed rule has not yet been published as a final rule. It was published for comment on November 7, 2007, with the comment period
ending on January 7, 2008.


 Audit Report 33601-2-KC                                                                                                                  32
     ·   Requesting that the Canadian Food Inspection Agency (CFIA) require that the USDA
         accredited veterinarian certify the following on the VS 17-140 (U.S. Origin Health
         Certificate):

            o Match attestations from the 10-13, specifically that:

                    §   Pregnant mares are not likely to foal;

                    §   Foals are older than 6 months of age;

                    §   Horses are able to bear weight on all 4 limbs;

                    §   Horses are not blind in both eyes;

                    §   Horses are able to walk unassisted;

            o Make a statement that the horses are fit to travel.

            o State that the inspection was conducted at some length of time less than the
              traditional 30 days.

  This evaluation will be completed by December 31, 2010.

  OIG Position

  We accept management decision for this recommendation.

  Recommendation 12
  Develop and implement an appropriate control to track individual horses by backtag number
  on all shipping documents approved so that reconciliation can be performed, violations can
  be investigated, and enforcement action can be initiated against the horse’s owner and
  shipper.

  Agency Response

  APHIS stated that it agrees with the recommendation, is committed to implementing the
  changes, and will evaluate several options including:

     ·   Evaluating the possibility of enforcing the Slaughter Horse Transport Program
         regulations by Veterinary Services personnel at ports of export, or discuss the
         possibility of this activity being conducted by another U.S. Federal Agency. This
         evaluation will be completed by May 2011.

     ·   Having CFIA consider a reduced list of ports through which slaughter horses may be
         imported into Canada. The length of time for this evaluation is unknown as it is
         dependent on a foreign governmental entity.



Audit Report 33601-2-KC                                                                      33
     ·   Evaluating the possibility of duplicating the horse identification information from the
         10-13 onto the 17-140, or to simply merging all of the information from the 10-13 on
         to the 17-140 and having one document that is certified by an accredited veterinarian.
         This evaluation will be completed by December 2010.

  These evaluations will generate recommendations to allow APHIS to more effectively track
  individual horses. Once the evaluations are complete, APHIS will implement appropriate
  follow-up actions within 6 months.

  OIG Position

  We accept management decision for this recommendation.

  Recommendation 13
  Implement the proposed rule that would broaden the scope of the regulation of slaughter
  horses being shipped to foreign slaughter facilities.

  Agency Response

  APHIS agrees with this recommendation. APHIS is in the process of publishing a final rule
  based on comments received on the proposed rule. APHIS anticipates that the rule will be
  published by the end of the calendar year. Implementation of this regulation will occur
  immediately upon publication.

  OIG Position

  We accept management decision for this recommendation.




Audit Report 33601-2-KC                                                                       34
Scope and Methodology
Our review assessed APHIS’ oversight of the humane treatment of horses, including supervision
of the DQP program to inspect for violations of the Horse Protection Act and supervision of the
humane transportation of horses across U.S. borders to foreign slaughter facilities.

We performed fieldwork from August 2008 through August 2009. Our review was conducted at
the APHIS National offices in Washington, D.C., and Riverdale, Maryland, as well as the OGC
in Washington, D.C. In addition, we completed field visits to horse shows in Florida, Kentucky,
Missouri, South Carolina, and Tennessee. We also observed border crossing activities along the
U.S.-Mexico border in Texas.

Based on our need to visit a number of shows before the end of the show season, we
judgmentally selected three horse shows to attend with APHIS veterinarians present to evaluate
how the DQPs were inspecting horses. We attended the 2008 Tennessee Walking Horse
National Celebration in Shelbyville, Tennessee, on August 29 and 30, 2008; the Heart of
America Walking Horse Association Fall Championship in Springfield, Missouri, on September
18, 19, and 20, 2008; and the South Carolina State Racking Horse Association51 Championship
and Walking Horse Show in Green Sea, South Carolina, on October 11, 2008. 52 Also, based on
our time constraints and the end of the horse show season, we judgmentally selected two
additional shows to attend without any APHIS personnel present so that we could observe the
performance of DQPs without APHIS oversight. We attended the Walking Horse Owners
Association Show in Tampa, Florida, on October 17, 2008; and the Ohio Valley Walking Horse
Association Fall Festival in Shelbyville, Kentucky, on October 18, 2008. We also accompanied
the APHIS VS Slaughter Horse Transport Program Field Coordinator to visit the Eagle Pass and
Del Rio border-crossing facilities used to transport horses across the U.S. border into Mexico.

To accomplish our objectives, we reviewed APHIS laws, regulations, procedures, and inspection
protocols relating to oversight of DQPs and oversight of slaughter horse transportation across
U.S. borders. To complete our review, we:

     ·     Interviewed responsible APHIS Animal Care and VS program officials to understand
           how they ensure oversight of their respective programs;

     ·     Reviewed available laws, regulations, procedures, and program documents to verify and
           evaluate program implementation;

     ·     Interviewed personnel from APHIS Investigative and Enforcement Services to better
           understand their role in the collection of evidence for Federal cases;

     ·     Interviewed OGC officials to better understand their processes for evaluating potential
           cases for enforcement and their processes for prosecuting and closing Federal cases


51
   A racking horse is similar to the T ennessee walking horse. It has a smooth, natural gait known as the “rack,” which is a four-beat gait also
known as the “ singlefoot” because only one foot strikes the ground at a time.
52
   Show managers at this event cancelled the show—citing unfavorable weather—after we arrived with APHIS personnel but before any horses
were presented for inspection.


 Audit Report 33601-2-KC                                                                                                                      35
       related to violations of the Horse Protection Act or slaughter horse transportation
       regulations;

   ·   Interviewed APHIS Review and Analysis Branch personnel regarding horse industry
       organization record reviews performed and their study of the violation rate disparity that
       exists when APHIS veterinarians are and are not present at shows, sales, or exhibitions;

   ·   Reviewed show and sale reports for 34 shows attended in 2008 to identify problems
       noted by the veterinarians relating to such things as DQP performance and the issuance of
       violation tickets;

   ·   Interviewed an official from a horse industry organization to discuss problems noted with
       APHIS’ oversight of the DQP program and possible improvements that can be made;

   ·   Interviewed two DQPs to discuss problems noted with APHIS’ oversight of the DQP
       program and possible improvements that can be made; and

   ·   Attended a training seminar hosted by APHIS for walking horse trainers concerning the
       use of thermography in inspections and other issues relating to the 2009 show season to
       learn about new inspection procedures and to observe APHIS personnel interacting with
       industry trainers.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




Audit Report 33601-2-KC                                                                         36
Abbreviations
AHPA.......................... Animal Health Protection Act
APHIS ......................... Animal and Plant Health Inspection Service
AVIC ........................... Area Veterinarian In Charge
CFIA ........................... Canadian Food Inspection Agency
CFR ............................. Code of Federal Regulations
DQP............................. Designated Qualified Person
HPA............................. Horse Protection Act
OGC ............................ Office of the General Counsel
OIG.............................. Office of Inspector General
U.S.C........................... U.S. Code
USDA.......................... U.S. Department of Agriculture
VS................................ Veterinary Services




Audit Report 33601-2-KC                                                      37
Exhibit A: Diagram of a Horse’s Lower Leg and Hoof




These diagrams are included in training materials for DQPs and veterinary medical officers.




Audit Report 33601-2-KC                                                                       38
Exhibit B: Penalties for Horse Protection Act (HPA) Soring Violations
The following tables show the established penalties for the Horse Protection Act violations
listed. Penalties outlined below are located in the Horse Protection Operating Plan, dated
July 20, 2007.

                                                        HPA Soring Violations
                                                                                                                                Fourth &
       Violation                   First Offense                Second Offense                 Third Offense                   Subsequent
                                                                                                                                 Offense
Pressure Shoeing 53  Five (5) years      Life                N/A                                                            N/A
Bilateral Sore 54    Eight (8) months Two (2) years          Five (5) years                                                 Life
Unilateral Sore      Thirty (30) days    Two (2) months      One (1) year                                                   Two (2) years
Scar Rule 55         Two (2) weeks       Two (2) months      One (1) year                                                   Two (2) years
                                     Suspension Violations
                               Six (6) months for each occurrence
                                     Other HPA Violations
Foreign Substance – Pre Show             Disqualification from Class (non-correctable)
Foreign Substance – Post Show            Two (2) weeks for each occurrence
Equipment Violations – Pre Show          Disqualification from Class (non-correctable)
Equipment Violations – Post Show         Two (2) weeks for each occurrence
                                    Unruly/Fractious Horse
                         Disqualification from Class (non-correctable)

When a person is suspended or disqualified because of a HPA violation, that individual may not
participate in certain activities related to horse shows, sales, auctions, exhibitions, or other
horse-related events. Specifically, a suspended or disqualified individual cannot:

     1. enter a horse 56 for the purposes of showing, exhibiting, or selling at auction,
     2. show or exhibit a horse at a horse show, public auction, or exhibition such as a college
        football game or parade,
     3. judge a horse show,
     4. enter the show ring during the course of a horse show,
     5. enter the inspection area or warm- up area where previously inspected horses are allowed
        to await ring or sale entry, during the course of a horse show or sale,
     6. coach any trainer, owner, or exhibitor anytime during the show or exhibit,

53
   Pressure Shoeing and Bilateral Sore Violations—In assessing penalties for pressure shoeing and bilateral sore violations, signatory horse
industry organizations have elected to voluntarily suspend the horse involved if the exhibitor of the horse is determined to have allowed an
activity in violation of the Act. If such a determination has been made, the horse shall be suspended for the period of time defined in the chart
above.
54
   See the previous footnote, which addresses both pressure shoeing and bilateral sore violations.
55
   Scar Rule Violations—In assessing penalties for the scar rule, signatory horse industry organizations have elected voluntarily to suspend the
horse involved in addition to the exhibitor as outlined in Exhibit 2 (of the Operating Plan). The horse industry organizations shall keep records to
track violations for each horse suspended in this manner. Enhanced penalties for subsequent scar rule violations for an owner, trainer, and/or
exhibitor must involve the same horse, except for circumstances in which an individual receives more than two first offense violations with
different horses. Notwithstanding anything contained herein to the contrary, for the purposes of determining penalties for scar rule violations, a
subsequent violation will become cumulative in accordance with the table above only if it occurs within 12 months after a suspension is served.
The signatory horse industry organizations agree to annually review the implementation and effectiveness of this scar rule penalty framework.
56
   As defined in the Operating Plan, to “ enter a horse” means to perform any of the activities that are required to be completed before a horse can
actually be shown or exhibited.


 Audit Report 33601-2-KC                                                                                                                        39
  7. transport horses to shows, exhibitions, or public auctions,
  8. prepare a horse on the sale, show, auction, or exhibition grounds, or
  9. serve as a horse show official.




Audit Report 33601-2-KC                                                      40
Agency’s Response




                          USDA’S




ANIMAL AND PLANT HEALTH INSPECTION
             SERVICE




           RESPONSE TO AUDIT REPORT




Audit Report 33601-2-KC               41
United States
Department of
                         MEMORANDUM                                                  September 20, 2010
Agriculture

Animal and Plant
Health Inspection        TO:                Gil H. Harden
Service
                                            Assistant Inspector General
Washington, DC                                for Audit
20250

                         FROM:               Cindy J. Smith /s/
                                             Administrator

                         SUBJECT: APHIS Response and Request for Management
                                  Decisions on OIG Report, “APHIS Administration
                                  of the Horse Protection Program and the Slaughter
                                  Horse Transport Program” (33601-02-KC)


                         Thank you for the opportunity for the Animal and Plant Health Inspection Service
                         (APHIS) to comment on this report. We have addressed each Recommendation
                         with our completed or planned corrective actions and the timeframes for
                         implementation of these actions.

                         Recommendation 1: Abolish the current DQP system, and obtain the
                         authority, if needed, to charge show managers the cost of providing
                         independent, accredited veterinarians to perform inspections at sanctioned
                         horse shows, sales, and other horse-related events.

                         APHIS Response: APHIS agrees with the intent of this recommendation. APHIS
                         will propose a regulatory change to abolish the current Designated Qualified
                         Persons (DQPs) licensing system and propose that the Agency license DQPs. Under
                         the proposed regulations, APHIS would require and provide a minimum of 14 hours
                         of specialized training to individuals pursuing DQP licensing. The proposed
                         regulations will also establish strict qualifications and criteria to prohibit conflicts
                         of interest. DQPs having close ties with the horse show industry would be excluded
                         from licensing. Horse Industry Organizations (HIOs) would continue to be
                         responsible for hiring and compensating the DQPs to inspect horse shows, but
                         would have to use APHIS-licensed DQPs.

                         Additionally, we will provide more outreach and recruitment activities to license
                         independent, accredited veterinarians as DQPs. We will display the USDA Horse
                         Protection Program exhibit at the American Association of Equine Practitioners
                         (AAEP) Annual Convention in Baltimore, MD in December 2010. We will
                         conduct a tabletop discussion session at the convention to inform the AAEP
                         members about the efforts USDA is making to eliminate soring at horse shows and
                         other related events. We will meet with other associations and organizations such

                    Safeguarding American Agriculture
                                                                                                  Federal Relay Service
                    APHIS is an agency of USDA’s Marketing and Regulatory Programs                (Voice/TTY/ASCII/Spanish)
                    An Equal Opportunity Provider and Employer                                    1-800-877-8339
Gil H. Harden                                                                      2


as, but not limited to, the American Horse Council and National Institute of Animal
Agriculture. We attended the World Equestrian Games in Lexington, KY in
September 2010, to discuss the Horse Protection Act with many of the accredited
veterinarians that will be in attendance.

APHIS will submit the work plan by January 1, 2011, but cannot predict the timing
or the final outcome of rulemaking.

Recommendation 2: Seek the necessary funding from Congress to adequately
oversee the Horse Protection Program.

APHIS Response: APHIS agrees with this recommendation. APHIS requested a
$400,000 increase in funding for FY 2011 which will bring the Horse Protection
budget to $900,000. APHIS will develop a budget and staffing plan to phase in the
resources needed to adequately oversee the Horse Protection program, and continue
to evaluate funding needs in future fiscal years.

Recommendation 3: Revise the Agency’s regulations so that independent and
APHIS veterinarians can directly issue violations much as DQP’s do in the
current system.

APHIS Response: APHIS agrees with the intent of this recommendation.
However, by creating an improved and more accountable DQP program, the
Agency will be better able to ensure that HIOs assess appropriate penalties. APHIS
has mandated a penalty protocol for every HIO to implement and enforce in order
to maintain USDA certification. APHIS will require each HIO to include the
penalty protocol in their rule book and implement the penalty protocol by January
1, 2011. Each HIO will be required to submit their rule book to APHIS for review
and approval before it is implemented during the 2011-2012 show season. Since
APHIS will have direct responsibility for the licensing of DQPs, APHIS will be
able to hold DQPs accountable for issuing violation findings.

The HIOs are responsible for enforcing HPA penalties, with APHIS overseeing the
process. Show management will be held liable and responsible if a HIO DQP is not
utilized during the horse show, sale, or other related event. APHIS will submit a
work plan to propose a regulatory change to decertify a HIO that fails to enforce the
HPA and penalties set forth by APHIS. With enhanced authority, APHIS will
establish criteria and procedures to immediately suspend the operation of an HIO.

APHIS will submit the work plan by January 1, 2011, but cannot predict the timing
or the final outcome of rulemaking.

APHIS will continue to conduct yearly HIO office audits. The audit results will be
used for risk analysis to determine the performance level of the HIOs enforcing the
HPA, future shows to monitor, and if the HIO followed the auditors’
Gil H. Harden                                                                        3


recommendations. The audit reports will continue to be posted on the APHIS AC
website.

Recommendation 4: Revise its regulations so that APHIS can discipline
inspectors who do not examine horses according to the agency’s standards,
which would include revoking the USDA accreditation of any veterinarian who
does not adequately inspect horses

APHIS Response: APHIS agrees with this recommendation. Within the proposed
regulations for a new DQP licensing program, we will incorporate APHIS’
authority to directly discipline DQPs, including DQPs who are accredited
veterinarians. APHIS will develop a work plan to add enforcement of the Horse
Protection Act under duties for accredited veterinarians by January 1, 2011.
Therefore, the accreditation for a veterinarian will be suspended or revoked if they
do not carry out their duties under HPA. The license of a DQP who is not an
accredited veterinarian can be suspended or revoked by APHIS if they fail to
enforce the HPA. APHIS will submit a work plan to propose a regulatory change
to directly discipline DQPs by January 1, 2011, but cannot predict the timing or the
final outcome of rule making.

APHIS is utilizing intermittent and full time field personnel to: (1) increase the
number of shows/sales attended by APHIS; (2) to monitor the inspections of the
DQPs; (3) to develop and implement additional training for the APHIS inspectors
and DQPs; and (4) to monitor the HIOs implementation of the penalty protocol.

APHIS will reiterate to the HIOs in 2011 that all parties responsible for the horse
(trainer, owner, rider, transporter, custodian, etc) will be penalized under the APHIS
penalty protocol. APHIS will monitor the HIOs process of penalizing the violators
of the HPA by reviewing the HPA database. APHIS will also verify that the
penalty protocol is implemented during the yearly HIO office audits.

In the interim, we will continue to monitor the DQPs who are licensed and certified
by the HIOs and recommend letters of warning (LOW) and cancellation of licenses
when APHIS observes lack of performance by DQPs during unannounced visits to
horse shows and related events.

Recommendation 5: Develop and implement protocols to more consistently
negotiate penalties with individuals who are found to be in violation of the
HPA.

APHIS Response: APHIS agrees with this recommendation. We developed a
penalty protocol that every HIO will be required to include in their rule books. The
HIOs will also be required to submit their rule books to APHIS for review and
approval. APHIS will implement this requirement on January 1, 2011.
Gil H. Harden                                                                       4


APHIS is utilizing intermittent and full time field personnel to conduct
unannounced visits to horse shows to monitor DQPs’ issuance of tickets and to
ensure the DQPs are completely and accurately collecting the information on the
violators during the show or other related event.

APHIS will closely monitor the appeal hearing process conducted by HIOs by
attending, unannounced, randomly selected appeal hearings. We will require HIOs
to submit written justification of a dismissed violation. APHIS will also verify that
the hearing protocol was followed during their yearly HIO office audits.

Recommendation 6: Develop and implement a searchable database of
individuals with HPA violations to verify that individuals suspended from
horse shows, sales, or exhibitions do not participate in events. In addition,
APHIS should include a process for receiving accurate, timely information
regarding suspended individuals from horse industry organizations, and
accurate, timely information regarding participants from horse show
organizers.

APHIS Response: APHIS agrees with this recommendation. As of July 19, 2010,
we developed and implemented a new web-interfaced database that each HIO is
required to utilize to submit the required information under the regulations.
Information from the database will be used to hold the management of horse shows,
sales, etc., accountable for their responsibilities under 9 CFR 11.20. On February 2,
2010, APHIS began posting online current HPA suspension lists on the USDA
website. We will create an online searchable database of HIO suspensions to be
available to the public by November 1, 2010.

Recommendation 7: Require that APHIS employees, independent
veterinarians (or DQP’s and horse show organizers) check all participants
responsible for the conditions of horses entered in the event against the
database of suspended individuals.

APHIS Response: APHIS agrees with this recommendation. On February 2,
2010, APHIS began posting online current HIO suspensions on the USDA website
for APHIS employees, independent veterinarians, DQPs and horse show organizers
to identify people on suspension and prohibit them from showing. APHIS is
currently in the process of gathering the data necessary to initiate investigations on
show managers who have allowed people on suspension to show. APHIS
anticipates completing the process of gathering the data and requesting an
investigation by October 1, 2010.

APHIS will propose a work plan to require that show managements conducting
horse shows or related events post the suspension lists and manually check the list
against those participating in the horse shows or related events prior to exhibiting
horses. APHIS cannot predict the timing or the final outcome of rulemaking. We
will submit the work plan by January 1, 2011.
Gil H. Harden                                                                     5


On August 12, 2010, APHIS sent a memo to all HIO coordinators, reminding them
that HIO suspensions and USDA disqualifications are to be enforced by all HIOs
and show managers. APHIS developed a fact sheet entitled “Responsibilities of
Horse Show Management”. This fact sheet will be sent to show managers to
emphasize their responsibility to follow the regulations, and to ensure that
individuals who have violated the HPA do not exhibit horses at the show or related
event. We will distribute the notice by January 1, 2011.

Recommendation 8: Revise regulations to prohibit horses identified with HPA
violations from competing in all classes at a horse show, exhibition, or other
horse-related event.

APHIS Response: APHIS agrees with this recommendation. APHIS currently has
the authority and enforces regulations to keep horses from competing in subsequent
events after inspectors detect a violation. Beginning March 1, 2010, we emphasized
to all show managers, HIOs, and DQPs that any horse found in violation at a horse
show will be prohibited from competing in any further classes at the horse show,
exhibition, or horse-related event. To better ensure that horses found to be in
violation do not compete in later events at a show, we will propose regulatory
changes to require that each horse be clearly and uniquely identified by a reliable,
objective, and permanently attached or embedded accurate device. APHIS will
submit the work plan by January 1, 2011, but cannot predict the timing or the final
outcome of rulemaking.

In the interim, APHIS will continue to conduct yearly HIO office audits with
emphasis on determining if horses found in violation at a horse show or related
event continued to show or be exhibited. By January 1, 2011, APHIS will establish
and implement procedures to decertify a HIO that has been found to allow horses to
continue to exhibit during a show. The criteria and procedures will include a
provision to immediately suspend the operation of a HIO. APHIS will propose a
regulatory change to suspend the operations of a HIO that fails to enforce the HPA
and requirements set forth by APHIS.

APHIS will submit the work plan by January 1, 2011, but cannot predict the timing
or the final outcome of rulemaking.

Recommendation 9: Revise SHTP regulations to allow APHIS to withhold
endorsement of shipping documents for individuals who violate humane
handling regulations and who have fines outstanding.

Recommendation 10: Develop a control (database or list) of all individuals who
have violated the regulations of the SHTP and have not paid the associated
fines, and provide the data to all APHIS officials and private veterinarians
endorsing shipping documents.
Gil H. Harden                                                                      6


APHIS Response: APHIS agrees with the intent of the recommendations and
agrees that those who have violated the humane handling regulations and failed to
pay any assessed penalties should not receive endorsement of any subsequently
requested shipping documents. APHIS will seek advice from the USDA Office of
General Counsel (OGC) to determine the best way to effectuate this concept for the
Slaughter Horse Transport Program. Initial conversations with OGC indicate that
there may be some legal issues with singling out violators of selected animal health
regulations and not all violators of all other Agency regulations. APHIS will work
with OGC to evaluate the best options to revise those regulations necessary that will
establish an agency wide policy that those who have violated the humane handling
regulations and failed to pay the associated penalties shall not receive endorsement
of any subsequently requested shipping documents. We will complete this
evaluation by May 31, 2011.

Recommendation 11: Revise regulations or implement adequate controls to
ensure that APHIS provides backtags to qualified personnel who can inspect
horses bound for slaughter and apply, or oversee the application of, backtags
when approving transport documentation.

APHIS Response: APHIS agrees with this recommendation, is committed to
implementing the changes, and will evaluate various options including:

   •   Reviewing the proposed rule to evaluate what changes are possible and/or
       necessary to require that Accredited Veterinarians and/or State animal health
       officials (in addition to the owner/shipper) either fill out the 10-13’s and
       apply backtags themselves, or sign the 10-13’s
   •   Requesting that the Canadian Food Inspection Agency (CFIA) require that
       the USDA accredited veterinarian certify the following on the VS 17-140
       (US Origin Health Certificate):
           o Match attestations from the 10-13, specifically that:
                     Pregnant mares are not likely to foal;
                     Foals are older than 6 months of age;
                     Horses are able to bear weight on all 4 limbs;
                     Horses are not blind in both eyes;
                     Horses are able to walk unassisted;
           o Make a statement that the horses are fit to travel;
           o State that the inspection was conducted at some length of time less
               than the traditional 30 days.
        
       This evaluation will be completed by December 31, 2010
Gil H. Harden                                                                       7


Recommendation 12: Develop and implement an appropriate control to track
individual horses by backtag number on all shipping documents approved so
that reconciliation can be performed, violations can be investigated, and
enforcement action can be initiated against the horse’s owner and shipper.

APHIS Response: APHIS agrees with the recommendation, is committed to
implementing the changes, and will evaluate several options including:

   •   Evaluating the possibility of enforcing the SHTP regulations by Veterinary
       Services personnel at ports of export, or discuss the possibility of this
       activity being conducted by another U.S. Federal Agency. This evaluation
       will be completed by May 2011.
   •   Having CFIA consider a reduced list of ports through which slaughter
       horses may be imported into Canada. The length of time for this evaluation
       is unknown as it is dependent on a foreign governmental entity.
   •   Evaluating the possibility of duplicating the horse identification information
       from the 10-13 onto the 17-140, or to simply merging all of the information
       from the 10-13 on to the 17-140 and having one document that is certified
       by an accredited veterinarian. This evaluation will be completed by
       December 2010.

These evaluations will generate recommendations to allow us to more effectively
track individual horses. Once the evaluations are complete, APHIS will implement
appropriate follow-up actions within six months.

Recommendation 13: Implement the proposed rule that would broaden the
scope of the regulation of slaughter horses being shipped to foreign slaughter
facilities.

APHIS Response: APHIS agrees with this recommendation. We are in the process
of publishing a final rule based on comments received on the proposed rule. We
anticipate that the rule will be published by the end of the calendar year.
Implementation of this regulation will occur immediately upon publication.
